<html>
<title> - NATO EXPANSION: EXAMINING THE ACCESSION OF NORTH MACEDONIA</title>
<body><pre>[Senate Hearing 116-196]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 116-196
 
            NATO EXPANSION: EXAMINING THE ACCESSION OF NORTH 
                               MACEDONIA

=======================================================================

                                HEARING


                               BEFORE THE


                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                     ONE HUNDRED SIXTEENTH CONGRESS



                             FIRST SESSION



                               __________

                              JUNE 12, 2019

                               __________



       Printed for the use of the Committee on Foreign Relations
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                   Available via the World Wide Web:
                         http://www.govinfo.gov
                         
                         
                         
                         
                U.S. GOVERNMENT PUBLISHING OFFICE 
 40-471 PDF              WASHINGTON : 2020                          


                 COMMITTEE ON FOREIGN RELATIONS        

                JAMES E. RISCH, Idaho, Chairman        
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
MITT ROMNEY, Utah                    CHRISTOPHER A. COONS, Delaware
LINDSEY GRAHAM, South Carolina       TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
ROB PORTMAN, Ohio                    EDWARD J. MARKEY, Massachusetts
RAND PAUL, Kentucky                  JEFF MERKLEY, Oregon
TODD, YOUNG, Indiana                 CORY A. BOOKER, New Jersey
TED CRUZ, Texas
              Christopher M. Socha, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page
Risch, Hon. James E., U.S. Senator From Idaho....................     1

Menendez, Hon. Robert, U.S. Senator From New Jersey..............     2

Reeker, Philip T., Acting Assistant Secretary, Bureau of European 
  and Eurasian Affairs, Department of State, Washington, DC......     5
    Prepared statement...........................................     8

Wheelbarger, Kathryn, Acting Assistant Secretary, International 
  Security Affairs, Department of Defense, Washington, DC........    10
    Prepared statement...........................................    11

              Additional Material Submitted for the Record

Responses of Philip T. Reeker to Questions Submitted by Senator 
  Robert Menendez................................................    29

Responses of Kathryn Wheelbarger to Questions Submitted by 
  Senator Robert Menendez........................................    31

Responses of Philip T. Reeker to Questions Submitted by Senator 
  Jeanne Shaheen.................................................    34

Responses of Kathryn Wheelbarger to Questions Submitted by 
  Senator Jeanne Shaheen.........................................    36

Letter From the U.S. Delegates to the NATO Parliamentary Assembly 
  Submitted by Senator Robert Menendez...........................    37


                             (iii)        


    NATO EXPANSION: EXAMINING THE ACCESSION OF NORTH MACEDONIA

                              ----------                              


                        WEDNESDAY, JUNE 12, 2019

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:18 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. James E. 
Risch, chairman of the committee, presiding.
    Present: Senators Risch [presiding], Johnson, Gardner, 
Romney, Young, Menendez, Cardin, Shaheen, Murphy, and Kaine.

           OPENING STATEMENT OF HON. JAMES E. RISCH, 
                    U.S. SENATOR FROM IDAHO

    The Chairman. This morning we are going to talk about the 
potential accession of North Macedonia as a member of the North 
Atlantic Treaty Organization, NATO.
    April 4th marked, as we all know, the 70th anniversary of 
NATO. I am glad to have another opportunity for this committee 
to discuss the importance of this alliance.
    NATO is the world's most successful political-military 
alliance in the history of the world. Founded by the United 
States and 11 other nations in 1949, it has expanded 7 times 
since its founding and now includes 29 countries. North 
Macedonia would make 30.
    The Senate's consideration of North Macedonia as a member 
of NATO is a piece of unfinished and long-delayed business. 
North Macedonia was originally eligible for NATO entry in 2008 
and was set to join the alliance, alongside Croatia and Albania 
in 2009. An ongoing dispute over North Macedonia's name 
prevented that from happening, but the leaders of both North 
Macedonia and Greece showed great political courage, given the 
tensions in each of the countries on that issue, in reaching an 
agreement earlier this year that has made today's discussion 
possible. The courage of the prime ministers to move the 
situation in the Balkans forward should be applauded. Not only 
does this Prespa Agreement pave the way forward for North 
Macedonia in both NATO and the European Union, but it is an 
excellent example of how other conflicts in the region could be 
and should be resolved.
    Over the past 70 years, NATO has remained a critical piece 
of the framework that supports our collective security, and 
while this small nation has not yet been inside the alliance, 
North Macedonia has worked alongside NATO for many years. From 
2002 until 2014, North Macedonia deployed about 4,000 troops in 
support of the international security assistance force in 
Afghanistan. It is currently supporting the Resolute Support 
mission to assist the Afghan Security Forces. The country has 
also provided support to the NATO-led peacekeeping forces in 
Kosovo. Recently NATO troops have begun training on a North 
Macedonian military training range, which is considered to be 
one of the best in Europe.
    NATO has proven not only to be a military success, but a 
political and economic one. NATO's security umbrella has 
provided the kind of stable political and security environment 
necessary for economic growth and investment. Since joining 
NATO in 2017, Montenegro has seen forward investment from 
members of the alliance double, and North Macedonia has high 
hopes for the same.
    Like most nations, North Macedonia is not without 
challenges. As a small country with a young democracy, it will 
require further government reforms and military modernization, 
as have most new NATO allies.
    For example, it will need to continue its transition from 
legacy Soviet equipment, further reform its intelligence 
services, continue to strengthen its anti-corruption 
institutions, and importantly, resist Russian interference.
    Yet, through its contributions to NATO missions, its 
already substantial democratic reforms, and the Prespa 
Agreement, North Macedonia has demonstrated robust commitment 
to the alliance and its values.
    Just as important as a commitment to shared values is 
allies' commitment to burden sharing. Seven allies currently 
meet their pledge to spend 2 percent of GDP on defense, and 18 
are on track to do so by 2024. We urge them to continue 
aggressively in that direction. North Macedonia has pledged to 
meet the 2 percent spending requirement and is already in the 
process of spending 20 percent of that amount on equipment.
    Many Americans might wonder how bringing a small country 
like North Macedonia into NATO will strengthen the alliance. 
North Macedonia brings military capabilities like its training 
center that I mentioned earlier, but it also brings political 
stability to a region long fraught with conflict. In the era of 
great power competition, it solidifies Western values in a 
country that Russia has been desperate to keep in its sphere of 
influence. North Macedonia has wisely declined.
    The West must honor commitments made to countries that have 
painstakingly made the reforms the alliance has asked of them. 
Otherwise, they may have nowhere to turn but towards Russia and 
China.
    Bringing a 30th member into NATO during its 70th year is a 
strong signal to allies and enemies alike that NATO continues 
to be critical to the United States for her security and 
alliance and that it is adapting to modern challenges.
    I look forward to hearing your testimonies and to hopefully 
welcoming North Macedonia into the alliance.
    With that, Senator Menendez.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman, for holding this 
hearing.
    NATO is vital to the security of the United States, and 
approving its expansion is one of the most important 
responsibilities that this committee has.
    Let me first acknowledge the presence of North Macedonia's 
charge d'affaires, Marijan Pop-Angelov. We appreciate you being 
here and joining us.
    And let me also acknowledge our newly confirmed Ambassador 
to North Macedonia, Kate Byrnes, who is with us as well. 
Congratulations, Ambassador. You have gone through the gauntlet 
successfully. So we look forward to your service.
    Mr. Chairman, before I begin my remarks, I would like to 
ask unanimous consent that a letter of support for North 
Macedonia's NATO bid from U.S. delegates to the NATO 
Parliamentary Assembly be entered into the record.
    The Chairman. So ordered.

    [The information referred to is located at the end of the 
hearing]

    Senator Menendez. Today's hearing would not be happening 
without the Prespa Agreement between Greece and North 
Macedonia, which resolved the country's longstanding name 
dispute and came into force this past February. I appreciate 
the hard work that these countries undertook, as well as the 
diligent work of American diplomats, to make Prespa a reality. 
I look forward to hearing more from the State Department on 
North Macedonia's progress towards implementing its commitments 
under the agreement.
    I also hope to more broadly examine the geopolitical 
context of North Macedonia's candidacy. We know that the 
Kremlin tried to thwart the Prespa Agreement by clandestinely 
funding disinformation and political manipulation campaigns 
against the name change in both North Macedonia and Greece. We 
must again make clear no country outside of the alliance gets a 
veto over who joins NATO, especially not Russia.
    Though a small country, North Macedonia has made notable 
contributions to international security missions. I understand 
that North Macedonia has deployed more than 4,000 troops to 
Iraq in support of U.S. efforts there. In 2018, North Macedonia 
boosted its contribution in Afghanistan by 20 percent. It has 
also supported missions in Kosovo and actively supports the 
international counter-ISIS coalition, as well as that North 
Macedonia is home to a military training ground, as the 
chairman mentioned, unlike any other in Europe. And I look 
forward to hearing how that will benefit U.S. and NATO military 
readiness. These are all strong arguments in favor of its 
inclusion in the alliance.
    I want to stress the importance of each NATO member 
spending 2 percent of its GDP on defense. Since 2014, countries 
across the alliance have increased their defense spending in 
reaction to a clear and growing threat from the Kremlin, not 
necessarily bullying by President Trump. North Macedonia does 
not currently meet that threshold, but it is making progress. 
It is closer to reaching the second half of the Wales 
Commitment, spending 20 percent of the defense budget on major 
equipment. In 2019, it will reach 18 percent of the defense 
budget. The North Macedonian defense minister committed to this 
committee their intention to hit these targets, and we should 
hold them to it.
    Belonging to NATO is not just a measurement of military 
capability. We were established as a club of democracies that 
abide by a certain set of principles. Former Secretary of 
Defense William Perry laid out some criteria when the Clinton 
administration was considering new members: individual liberty 
for citizens, democratic elections, the rule of law, economic 
and market-based reforms, resolution of territorial disputes 
with neighbors, civilian control of the military.
    I would like our witnesses to address the durability of 
North Macedonia's recent rule of law improvements. Following 
corruption and abuses of authority under the previous 
government, North Macedonia's main political parties came 
together and signed the Przino Agreement to address the rule of 
law issues. In keeping with the agreement, North Macedonia has 
made difficult reforms and taken steps to address corruption by 
appointing a special prosecutor and tackling difficult cases.
    More work remains to continue to perfect North Macedonia's 
democracy. NATO member states should not consider this process 
complete and should urge North Macedonia to fully implement its 
reform commitments.
    Admission of North Macedonia into NATO would mark another 
important step towards fully integrating the Balkans into 
international institutions that have helped to contribute to 
peace and stability over the years in Europe. There is 
unfinished work for peace in the Balkans, and U.S. leadership 
is necessary to resolve these long-running challenges.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Menendez.
    Now we are going to hear from a couple of excellent 
witnesses on this.
    Before I do that, I would respectfully disagree about 
characterizing the President's actions of attempting to get our 
allies to meet their commitments of 2 percent as bullying. 
Indeed, I would think that there is not a member of this 
committee that have not met with our friends and allies in this 
that have not urged them in the strongest terms to meet that 
commitment. The President has done the same, and as we all 
know, he has a unique way of communicating ideas that are in 
his mind. And so I have no doubt that he and all of us on this 
committee will remain united to urge that our allies--and they 
are our allies--meet their 2 percent of GDP defense commitment, 
which is indeed a commitment.
    So with that, we will now hear from the Honorable Philip 
Reeker. He is the Acting Assistant Secretary of State for 
European and Eurasian Affairs. He previously served as a 
political advisor and civilian deputy at U.S. European Command. 
In his distinguished career, Ambassador Reeker has also served 
as Counsel General in Milan, Deputy Assistant Secretary of 
State for European and Eurasian Affairs focused on the Balkans, 
Central Europe, and Holocaust issues, and more importantly, was 
U.S. Ambassador to Macedonia from 2008 to 2011.
    Mr. Reeker, we welcome you and you no doubt have a very 
expert and unique view of this matter. So we are interested to 
hear your view. Mr. Reeker, the floor is yours.

  STATEMENT OF PHILIP T. REEKER, ACTING ASSISTANT SECRETARY, 
 BUREAU OF EUROPEAN AND EURASIAN AFFAIRS, DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ambassador Reeker. Thank you, Mr. Chairman, Senator 
Menendez, and the other members of the committee. It is indeed 
a pleasure for me to be here today some 11 years after I was in 
this same room for my hearing to become the fifth Ambassador in 
Skopje. I am really grateful for the opportunity to discuss, 
along with my colleague from the Department of Defense, the 
critical role that NATO plays in our security and North 
Macedonia's place in the alliance.
    It is my first appearance before the committee since I was 
asked by Secretary Pompeo to take over the responsibilities of 
former Assistant Secretary Wess Mitchell, and I really look 
forward to continuing to uphold the excellent standards 
established by Assistant Secretary Mitchell and our Bureau of 
European and Eurasian Affairs, and that includes working with 
the members of the committee and your staffs and being 
responsive to your questions and concerns. We are very grateful 
for you holding this important hearing today.
    I do want to thank our next Ambassador, my successor, Kate 
Byrnes, who is with us today. I am absolutely delighted that 
she will follow in the footsteps to continue working with North 
Macedonia, which is an important friend to the United States. I 
can think of no better colleague to have there representing the 
United States, and she will be leading a team, along with the 
Bureau of European Affairs, that focuses on exactly the issues 
that Senator Menendez mentioned in terms of working with 
Macedonia to continue their reforms and their strong support. 
And I want to thank the committee for seeing that Kate Byrnes 
was confirmed expeditiously because we are very excited to have 
her get out to Skopje.
    I do welcome the opportunity to explain why the 
administration strongly and unequivocally supports North 
Macedonia's membership in NATO. We firmly believe that North 
Macedonia's membership in the alliance benefits the national 
security of the United States and all Americans.
    As you may know, as you heard, I have a long professional 
and personal connection to the country. I did serve there at 
our embassy in Skopje from 1997 to 1998 as the public affairs 
officer and then later, with the advice and consent of this 
committee, as Ambassador, then as Deputy Assistant Secretary 
for South Central Europe.
    I have seen North Macedonia develop into the strong partner 
and, with the Senate's blessing, NATO ally that we need in the 
Western Balkans. I was also in Skopje after the Bucharest NATO 
summit in 2008, and I can tell you that the people of North 
Macedonia have yearned for and earned this moment, a moment to 
reflect on the long and sometimes difficult path that they have 
had to travel, but one that ultimately has led to a true and 
enduring commitment to peace, democracy, and prosperity for 
North Macedonia and for enduring transatlantic security and 
stability.
    I might note that the 19th century German statesman, Otto 
Von Bismarck, used to refer to the vexing Macedonia question. 
Well, some years ago, with the independence of this country, we 
answered that question. A democracy, multi-ethnic, that shares 
its values with the transatlantic community and now is the 
Republic of North Macedonia--we can continue to see that this 
difficult place in the world with a complicated geography is in 
fact an important element of our transatlantic security.
    Let me begin by reaffirming the role of NATO. As President 
Trump has said, the alliance has been the bulwark of 
international peace and security for 70 years, something we 
celebrated along with many of the members of the committee at 
the ministerial just a couple of months ago when Secretary 
Pompeo presided over the 70th anniversary celebration.
    The alliance will remain the bulwark of international peace 
and security, and NATO's accomplishments are many. From 
deterring the former Soviet Union during the Cold War to 
contributing to international security in Bosnia and 
Herzegovina and Kosovo and Afghanistan and Iraq, to confronting 
emerging security challenges and, throughout it, all the time 
welcoming new members into this critical alliance.
    To be sure, we face complicated security challenges. As 
outlined in the National Security Strategy, the return of great 
power competition is the defining geopolitical fact of our 
time, and the need to systematically prepare for this 
competition is the central task of U.S. foreign policy and, 
indeed, of the transatlantic alliance. The most immediate 
threat to transatlantic security continues to be Russia, which 
is engaged in wide-ranging, nefarious efforts to undermine the 
peace and prosperity the West has built over the last 70 years. 
President Putin seeks to weaken the cohesion among NATO allies 
and to subvert and destabilize our democratic institutions and 
processes. We also face increasing threats from China, which is 
seeking a strategic foothold in Europe by employing so-called 
gray zone tactics, including investments in sensitive 
technologies, critical infrastructure, and natural resources.
    The NATO alliance is evolving to meet these challenges by 
enhancing its readiness, mobility, command structure, and 
ability to face hybrid and cyber threats. Through efforts like 
the NATO Readiness Initiative and additional coordination on 
hybrid and cyber threats, we will be even stronger and more 
prepared to face down emerging challenges. And I will let my 
colleague address those in further detail.
    Let me turn to North Macedonia and the benefits it will 
bring to the alliance when it becomes the 30th ally.
    The implementation of the historic Prespa Agreement and the 
resolution of the name dispute with Greece underscore that 
North Macedonia is willing to make sacrifices and dignified 
compromises needed for peace and stability.
    In recognition of its progress and potential, allies 
unanimously agreed in July 2018 to invite the Republic of North 
Macedonia to begin accession talks. And in February of this 
year, allies signed the Accession Protocol for North Macedonia. 
Two days later, in an historic moment fulfilling the promises 
made in Prespa, Greece and its dynamic leadership became the 
first country to ratify North Macedonia's NATO accession 
protocol. To date, 16 allies have completed the parliamentary 
requirements for ratification, and I would like to mention them 
for the record. They are: Albania, Belgium, Bulgaria, Croatia, 
Denmark, Germany, Greece, Latvia, Lithuania, Montenegro, 
Norway, Poland, Portugal, Romania, Slovakia, and Slovenia. Of 
those, 11 countries have deposited their instruments of 
ratification of the accession protocol.
    Now, as we have heard, North Macedonia has contributed to 
international operations since 2002, deploying almost 4,000 
soldiers, with soldiers from the United States and North 
Macedonia courageously fighting alongside each other in Iraq, 
where I was able to visit the Macedonian contingent. They still 
do so today in Afghanistan. And later this week, over 1,000 
U.S. troops will participate in exercises alongside soldiers 
from North Macedonia and other allied countries at the Krivolak 
training area, already mentioned, a resource that North 
Macedonia has made available for NATO exercises, and I can 
attest from my experience at European Command an extremely 
admired a piece of geography, and it is very important for the 
kinds of exercises that our military and our alliance need to 
do.
    Adding North Macedonia to the alliance will make NATO 
stronger, will enhance regional security and stability in what 
is historically one of the least stable places in Europe. North 
Macedonia takes its burden sharing seriously and has a clear 
and credible plan in place to reach the 2 percent-20 percent 
Wales commitment by 2024, and I reiterated that plan and those 
pledges in the meeting with the minister of defense of North 
Macedonia just last Friday at a conference in Bratislava.
    North Macedonia also has a clear and credible plan in terms 
of spending already 18 percent of its defense budget on 
modernization and capabilities, and they will reach that 20 
percent goal for capabilities already next year. That puts them 
in the upper half of current NATO members when it comes to 
meeting these key thresholds.
    North Macedonia has also made great strides to meet NATO 
standards by implementing deep reforms in the defense, 
intelligence, and security sectors, and I have been able to 
monitor that progress throughout the course of my own career. 
And they have very much taken to heart the mentorship provided 
by the United States and our allies, including through the 
State Partnership Program where the State of Vermont and its 
National Guard have been so crucial in shepherding North 
Macedonia in this path.
    And of course, as the chairman and Senator Menendez have 
already mentioned, North Macedonia has its challenges. We have 
made clear that we expect the reforms to continue and to hold. 
But given the progress and clear commitment to assuming the 
responsibilities of NATO membership, the administration sees an 
historic opportunity to advance United States and allied 
interests in the region by welcoming North Macedonia into the 
alliance, with the hope that it will expand its participation 
in the transatlantic community even further.
    North Macedonia is an example, not just to other countries 
in the Balkans, but also to other NATO aspirants. Its soldiers 
have fought alongside the United States and NATO forces against 
shared threats. Its leaders have demonstrated a true commitment 
to carrying their share of the burden and doing their part to 
secure peace, democracy, rule of law, and common defense. Over 
decades now, the promise of NATO membership and broader 
integration into the Euro-Atlantic family have advanced 
democratic values in the country, respect for the rule of law, 
and the pursuit of security and defense policies in line with 
U.S. and NATO standards and objectives. This is a good thing 
for the United States and our interests. It has also 
incentivized countries to pursue difficult but critical 
political and military reforms over the sustained period, and 
our policy has yielded clear dividends.
    So the rules have not changed. The open door policy is 
strong and NATO membership remains to all European nations who 
qualify and demonstrate the ability to contribute to alliance 
security.
    Mr. Chairman, Ranking Member Menendez, and distinguished 
members of the committee, I want to finish just by urging the 
Senate to continue our cooperation on NATO enlargement and at 
the earliest opportunity to provide its advice and consent to 
U.S. ratification of the Accession Protocol for North 
Macedonia.
    Thank you very much. I look forward to your questions.
    [The prepared statement of Ambassador Reeker follows:]

                 Prepared Statement of Philip T. Reeker

                              introduction
    Thank you, Mr. Chairman, members of the committee. Thank you for 
the opportunity to discuss the critical role NATO plays in our security 
and North Macedonia's place in the Alliance. This is my first 
appearance before this committee since I was asked by the Secretary and 
former Assistant Secretary Wess Mitchell to assume this position. I 
look forward to continuing to uphold the excellent standards set by A/S 
Mitchell and the European bureau, and this includes working with the 
Members of this Committee and being responsive to your questions and 
concerns.
    I welcome this opportunity to explain why the administration 
strongly and unequivocally supports North Macedonia's membership in 
NATO. We firmly believe that North Macedonia's membership in the 
Alliance benefits the national security of the United States.
    As you may know, I have a personal connection to North Macedonia--
as the former Embassy Spokesperson, and later Ambassador--I have seen 
North Macedonia develop into the strong partner and, with the Senate's 
blessing, NATO Ally we need in the Western Balkans. I was also in 
Skopje after the Bucharest NATO Summit in 2008. I can tell to you that 
the people of North Macedonia have yearned for--and earned--this 
moment: a moment to reflect on the long and sometimes hard path they 
had to travel, but one that ultimately led to an enduring commitment to 
peace, democracy, and prosperity for North Macedonia.
                                  nato
    Let me begin by reaffirming the role of NATO. As President Trump 
has said, the Alliance has been the bulwark of international peace and 
security for 70 years, and it will remain so. NATO's accomplishments 
are many. From deterring the former Soviet Union during the Cold War, 
to contributing to international security in Bosnia and Herzegovina, 
Kosovo, Afghanistan, and Iraq, to confronting emerging security 
challenges, and throughout it all welcoming new members into this 
critical Alliance.
    To be sure, we face complicated security challenges. As outlined by 
the National Security Strategy, the return of great-power competition 
is the defining geopolitical fact of our time, and the need to 
systematically prepare for this competition is the central task of U.S. 
foreign policy, and indeed, of the Transatlantic alliance. The most 
immediate threat to Transatlantic security continues to be Russia, 
which is engaged in wide-ranging, nefarious efforts to undermine the 
peace and prosperity the West has built over the last 70 years. Putin 
seeks to weaken the cohesion among NATO Allies and to subvert and 
destabilize our democratic institutions and processes. We also face 
increasing threats from China, which is seeking a strategic foothold in 
Europe by employing so-called ``gray zone'' tactics, including 
investments in sensitive technologies, critical infrastructure, and 
natural resources.
    The NATO Alliance is evolving to meet these challenges by enhancing 
its readiness, mobility, command structure, and its ability to face 
hybrid and cyber threats. Through efforts like the NATO Readiness 
Initiative and additional coordination on hybrid and cyber threats, we 
will be even stronger and more prepared to face down emerging 
challenges.
                      north macedonia's nato path
    Let me turn to North Macedonia and the benefits it will bring to 
the Alliance when it becomes the 30th Ally.
    In recognition of its progress and potential, and with the 
understanding that North Macedonia and Greece would reach an agreement 
on the name issue, Allies unanimously agreed in July 2018 to invite 
North Macedonia to begin accession talks. In February of this year, 
Allies signed the accession protocol for North Macedonia. Two days 
later, in a historic moment fulfilling the promises made in Prespa, 
Greece became the first country to ratify North Macedonia's NATO 
accession protocol. To date, in total 16 Allies have completed the 
parliamentary requirements for ratification. They are: Albania, 
Belgium, Bulgaria, Croatia, Denmark, Germany, Greece, Latvia, 
Lithuania, Montenegro, Norway, Poland, Portugal, Romania, Slovakia, and 
Slovenia. Of those Allies, 11 nations have deposited their instruments 
of ratification of the Accession Protocol. The implementation of the 
historic Prespa Agreement and the resolution of the name dispute with 
Greece underscore that North Macedonia is willing to make sacrifices 
needed for peace and stability.
    North Macedonia has contributed to international operations since 
2002, deploying almost 4,000 soldiers. Soldiers from the U.S. and North 
Macedonia courageously fought alongside each other in Iraq, and they 
still do so today in Afghanistan. Last week, over 1,000 U.S. troops 
participated in exercises alongside soldiers from North Macedonia and 
other Allied countries at the Krivolak Training Area, a resource North 
Macedonia has made available for NATO exercises.
    Adding North Macedonia to the Alliance will make NATO stronger and 
enhance regional security and stability in what is historically one of 
the least stable places in Europe. North Macedonia takes its burden 
sharing seriously and has a clear and credible plan in place to reach 
the 2 percent-20 percent Wales commitment by 2024. It is already 
spending 18 percent of its defense budget on modernization with plans 
to reach NATO's goal of 20 percent next year, which puts them in the 
upper half of current NATO members when it comes to meeting this key 
threshold. North Macedonia has also made great strides to meet NATO 
standards by implementing deep reforms in the defense, intelligence, 
and security sectors, and by taking to heart the mentorship provided by 
the United States and our Allies.
    Of course, North Macedonia also has its challenges. We have made 
clear that we expect reforms to continue and to hold. But given its 
progress and clear commitment to assuming the responsibilities of NATO 
membership, the administration sees a historic opportunity to advance 
U.S. and Allied interests in the region by welcoming North Macedonia 
into the Alliance, with the hope that it will expand its participation 
in the transatlantic community even further.
    North Macedonia is an example, not just to other countries in the 
Balkans, but also to other NATO aspirants. Its soldiers have fought 
side by side with U.S. and NATO forces against shared threats. Its 
leaders have demonstrated their commitment to carrying their share of 
the burden and doing their part to secure peace, democracy, rule of 
law, and common defense. Over decades, the promise of NATO membership 
has advanced democratic values, respect for the rule of law, and the 
pursuit of security and defense policies in line with U.S. and NATO 
standards and objectives. It has also incentivized countries to pursue 
difficult but critical political and military reforms over a sustained 
period. This policy has yielded clear dividends. The rules have not 
changed: the Open Door policy is strong, and NATO membership remains 
open to all European nations who qualify and demonstrate the ability to 
contribute to Alliance security.
    Mr. Chairman, Ranking Member Menendez, and distinguished Members of 
this Committee, I urge the Senate to continue our cooperation on NATO 
enlargement, and at the earliest opportunity to provide its advice and 
consent to U.S. ratification of the Accession Protocol for North 
Macedonia.
    Thank you. I look forward to your questions.

    The Chairman. Thank you very much, Ambassador Reeker.
    I think most members of this committee have already given 
the advice, and we are moving along on the consent as rapidly 
as we can, given our rules.
    Next we will turn to Ms. Kathryn Wheelbarger. She is the 
Acting Assistant Secretary of Defense for International 
Security Affairs. She oversees policy issues related to the 
nations and international organizations of Europe, including 
NATO, Russia, the Middle East, Africa, and the Western 
Hemisphere. Previously Ms. Wheelbarger served as Vice President 
for Litigation and Chief Compliance Officer at CSRE, Inc. from 
2011 to 2017. Ms. Wheelbarger served as Policy Director and 
Counsel on the Senate Armed Services Committee and as Deputy 
Staff Director and Senior Counsel on the House Permanent Select 
Committee on Intelligence.
    Given that background, we are anxious to hear your 
comments, Ms. Wheelbarger. The floor is yours.

 STATEMENT OF KATHRYN WHEELBARGER, ACTING ASSISTANT SECRETARY, 
    INTERNATIONAL SECURITY AFFAIRS, DEPARTMENT OF DEFENSE, 
                         WASHINGTON, DC

    Ms. Wheelbarger. Good morning, Chairman Risch, Ranking 
Member Menendez, and members of the committee. It is a pleasure 
to be here today to describe DOD's support for North 
Macedonia's membership into NATO.
    I will try to be brief, and I apologize in any way that 
this is duplicative of what you have heard thus far. That was 
very comprehensive and we appreciate it.
    For nearly two decades, North Macedonia has been a trusted 
bilateral and multilateral partner. As the chairman and ranking 
member already highlighted, they have deployed side by side 
with our troops in Afghanistan and Iraq for years. Moreover, 
North Macedonia is the first country ever to go into combat in 
Afghanistan alongside our U.S. National Guard. It has continued 
to increase its troop contributions in Afghanistan over the 
last 2 years, emphasizing its commitment to NATO and our shared 
security goals.
    North Macedonia also provides logistical support to the 
NATO mission in Kosovo, as we have heard, by offering its 
training facilities for NATO training missions. And just last 
week, it was the center of the largest military exercise in 
North Macedonia since the break-up of Yugoslavia, with more 
than 2,500 NATO forces participating.
    It also cooperates with U.S. counterterrorism efforts, 
especially as part of the Global Coalition to Defeat ISIS. 
Significantly, North Macedonia was one of the very first 
countries to commit to taking back their foreign terrorist 
fighters and prosecuting under their local laws. And I cannot 
overstate the importance of that leadership to worldwide 
security. They are an example for the rest of the West.
    North Macedonia's political commitment to defense reform 
also demonstrates its dedication as a partner that upholds core 
NATO values. Just recently North Macedonia completed its 
strategic defense review, exerting a significant political will 
to right-size its military and divest itself from legacy Soviet 
equipment.
    Equally important is North Macedonia's commitment to NATO 
pledges. As we have heard and as the Ambassador reiterated, 
North Macedonia has a credible plan to meet 2 percent and 20 
percent requirements by 2024, and again, it continues to serve 
as an example for other NATO allies.
    North Macedonia also budgets for increases in national 
expenditures to acquire Western-made equipment, including U.S.-
made infantry vehicles. Their plans will increase both their 
readiness and NATO interoperability. They also have more than 
900 graduates from U.S. schools and training programs such as 
the International Military Education and Training program. As 
you know, this program is vital. It creates enduring 
connections and relationships for our mutual security interests 
that sustain over decades. North Macedonia proves the value of 
this program, as many of their graduates are in positions at 
the highest level of government in North Macedonia.
    Finally, we just celebrated, as we heard, the 25th 
anniversary of its close relationship with the Vermont National 
Guard through the State Partnership Program. This program is a 
tangible symbol of our long-term commitments to our 
relationship and addressing together our mutual security 
interests.
    North Macedonia's accession presents an historic 
opportunity to further extend the stabilizing influence in the 
Western Balkans, a key strategic region for European security. 
The Department believes North Macedonia is ready for NATO 
membership.
    And I would like just to close by highlighting, from our 
perspective in DOD, a key attribute of North Macedonia, and 
that is not just its capabilities, but it is the will it has to 
contribute to some of our most important and challenging 
missions and they have for decades.
    So we appreciate your time today, and I look forward to 
your questions.
    [The prepared statement of Ms. Wheelbarger follows:]

               Prepared Statement of Kathryn Wheelbarger

    Chairman Risch, Ranking Member Menendez, and Members of the 
Committee, thank you for this opportunity to express the support of the 
Department of Defense for North Macedonia's membership in the North 
Atlantic Treaty Organization (NATO). In many ways, this moment 
celebrates the culmination of the strong bilateral defense relationship 
the United States has fostered with the Government of North Macedonia 
since 1991. NATO membership for North Macedonia will advance a 
longstanding, shared commitment to the fight against global terrorism 
and the promotion of international stability in southeastern Europe.
    Following the NATO accession of Slovenia, Croatia, Albania, and 
most recently, Montenegro, the accession of North Macedonia presents a 
historic opportunity to further extend a stabilizing influence in this 
strategic region. Our Allies and partners in the Western Balkans--a 
region where U.S. and NATO forces have intervened twice in the past 25 
years--look to the United States as they strive to deter Russia and 
institutionalize the pillars of Western democratic values. NATO 
enlargement benefits not only our collective defense, but also serves 
to advance core U.S. interests under our National Defense Strategy.
    North Macedonia emerged from the break-up of Yugoslavia to become a 
highly dedicated security partner to NATO, joining NATO's Partnership 
for Peace (PfP) in 1995. Since that time, North Macedonia has 
consistently been an important force contributor, fighting alongside 
the United States and NATO in Afghanistan and Iraq. Since 2002, North 
Macedonia has deployed with us in support of Operation Iraqi Freedom 
(OIF) and, in Afghanistan, to Operation Enduring Freedom (OEF), the 
International Security Assistance Force (ISAF), and the Resolute 
Support Mission (RSM) and increased its contributions to RSM in the 
last 2 years. North Macedonia also maintains staff officers deployed to 
the United Nations Interim Force in Lebanon (UNIFIL) and to the EU 
mission in Bosnia-Herzegovina (Operation Althea). North Macedonia also 
notably celebrated its 25th anniversary working closely with the 
Vermont National Guard under the State Partnership Program (SPP) and in 
2010, was the first SPP partner to deploy in an overseas combat tour to 
Afghanistan with a National Guard unit. Most recently, the Government 
of North Macedonia committed to deploy another contingent of forces 
with the Vermont National Guard in 2020.
    North Macedonia participates in over a dozen NATO and U.S. 
exercises each year, including a recent commitment to send a mechanized 
company and a Ranger platoon to U.S. Army Europe's SABER JUNCTION 
military training exercise in September. Additionally, North Macedonia 
provides logistical support to the NATO mission in Kosovo (KFOR) and 
offers the use of its largest training area, Krivolak, to U.S. and NATO 
forces, which provides a unique maneuver training area in Europe. This 
is a cost-saving contribution to KFOR operations. As a future member of 
NATO, North Macedonia will bring this asset to the Alliance, addressing 
the need for additional quality training areas to increase NATO 
readiness levels. Krivolak is also the center of the multinational 
military training exercise Decisive Strike, hosted by North Macedonia 
this month, which is the largest military exercise in the country since 
the break-up of Yugoslavia. More than 2,700 forces, including about 
1,300 from the United States, are taking part in the exercise.
    North Macedonia cooperates with U.S. counterterrorism (CT) efforts 
as part of the Global Coalition to Defeat ISIS, participating as a 
member of the Foreign Terrorist Fighter Working Group. North Macedonia 
was one of the first countries to publicly announce intentions to 
repatriate foreign fighters from Syria. Seven nationals of North 
Macedonia, captured and held by the Syrian Democratic Force, were 
convicted of terrorism-related offenses and sentenced to between 6 and 
9 years in prison. North Macedonia adopted in March 2018 the 2018-2022 
National Counterterrorism Strategy and a standalone 2018-2022 National 
Strategy for Countering Violent Extremism. Both were accompanied by 
National Action Plans. The Department of Defense is using the Section 
333 authority to build the capacity of national-level security forces 
of North Macedonia, specifically the Special Police Units, in support 
of counterterrorism operations.
    North Macedonia's resolute political commitment to defense reform 
over several years demonstrates a dedicated partner that upholds core 
NATO values, and that satisfies practical requirements. NATO's 
mechanisms for aspiring members, honed over decades of partnerships and 
numerous rounds of enlargement, serve to confirm North Macedonia's 
ability to satisfy such practical requirements as protecting classified 
planning documents, conducting secure operational communications, 
participating with personnel in NATO's integrated command structure, 
and applying NATO training and doctrinal requirements and other 
essential foundations of interoperability. Complementing these NATO 
mechanisms, the U.S. on a bilateral basis is also working with North 
Macedonia on a bilateral memorandum of understanding (MOU) for defense 
cooperation. Within the general framework of the aims of NATO and the 
PfP, the MOU is intended to guide North Macedonia towards its reform 
goals.
    Going forward now, the election of new pro-NATO President Stevo 
Pendarovski this past May, backed by a pro-NATO Prime Minister and 
Defense Minister, are likely to further accelerate necessary reforms to 
meet the wider range of NATO standards and guidelines for the overall 
capability and posture of the nation's defense forces. The Government 
of North Macedonia is implementing changes to right-size its military 
and is divesting itself of Soviet legacy military equipment. North 
Macedonia also completed its Strategic Defense Review (SDR) in 2018 
with U.S. and NATO guidance. North Macedonia has pledged to meet NATO's 
defense spending commitment of 2 percent of GDP by 2024 and is already 
spending 18 percent of its defense budget on modernization with plans 
to reach NATO's goal of 20 percent next year.
    North Macedonia's defense spending will be in line with NATO 
standards: 50 percent on personnel; 30 percent for operations, 
maintenance, and training; and 20 percent for equipment and 
modernization. Under the SDR, the Government of North Macedonia has 
already begun transforming its armed forces based on its expected NATO 
capability goals. Complementing NATO guidance and support, North 
Macedonia has been a model steward of U.S. security assistance funding 
and plans continued increases in national expenditures for the 
acquisition of Western-made equipment, such as the purchase of U.S.-
made infantry fighting vehicles. These new vehicles will replace 
approximately 25 percent of North Macedonian ground capability with new 
models, resulting in improved readiness and interoperability. 
Additional spending will focus on individual soldier equipment, 
Western-made transport helicopters, and renovation of defense 
information technology systems. North Macedonia also has more than 900 
graduates from U.S. schools and training funded through International 
Military Education and Training (IMET), Foreign Military Financing 
(FMP), and other Department of Defense sources, including a several 
Senior Service College graduates and Intermediate Level Education 
graduates. Many of these graduates are in critical positions at the 
highest levels of North Macedonia's defense establishment.
    North Macedonia maintains positive relations with its neighbors. 
North Macedonia is a founding member of the U.S.-Adriatic Charter 
(along with Albania, Croatia, Montenegro, and Bosnia and Herzegovina), 
which promotes regional cooperation and furthers NATO integration. 
Montenegro has assisted North Macedonia in providing insightful 
guidance in preparation for accession as well as NATO's expectations 
after membership is realized. Since the Prespa Agreement, relations 
with Greece have improved, including in the defense sphere. Although 
North Macedonia currently lacks a fixed-wing capability, Greece has 
been particularly helpful in this regard and has provided air patrols 
over North Macedonia's airspace.
    The United States and our NATO Allies cannot be ambivalent toward 
the Western Balkans. Inaction invites Russian malfeasance, as evidenced 
by an attempted coup in Montenegro in October 2016, an aggressive 
disinformation campaign to derail North Macedonia's referendum in 
September 2018, and increased political paralysis in Bosnia and 
Herzegovina since the election of pro-Russian, ethnic Serbian 
nationalist Milorad Dodik to the country's tri-presidency in October 
2018. Russia's underhanded actions across the region have provoked 
widespread skepticism of the Russian Government and have prompted 
several countries to engage even more closely with NATO, especially in 
the cyber domain. North Macedonia has worked closely with the United 
States to counter Russia in cyberspace, including initiating its first 
FMS case for cyber security upgrades. Additionally, in 2018, U.S. Cyber 
Command operated alongside cyber defenders from North Macedonia to 
improve network defense and information sharing on malicious cyber 
activities that threaten both of our democracies. These activities are 
consistent with the Department of Defense Cyber Strategy, which directs 
the Department to expand operational cooperation with our allies and 
partners.
    North Macedonia is ready for NATO membership. North Macedonia's 
accession is critical to the stability and security of the Western 
Balkans, and to the realization of a Europe that is whole, free, and at 
peace. North Macedonia's accession will help rebuff Russian malign 
influence in the region and demonstrate to other countries that NATO's 
door remains open to those who share our values, are willing to make 
necessary reforms, and are committed to the responsibilities of 
membership.
    It is my great honor to appear before this Committee. Thank you, 
and I look forward to your questions.

    The Chairman. Thank you very much. I appreciate your 
remarks, both of you.
    We are now going to do a round of questions, and I am going 
to start briefly.
    Mr. Reeker, you mentioned that you talked with the North 
Macedonians recently about the commitment to reach their 2 
percent-20 percent. As we know, they already have the 20 
percent, which is a good sign. And you also noted that they are 
in the upper echelon for people who are reaching for that goal.
    What is your optimism for them getting to the point that we 
want to see that they have agreed to get to and that we all 
want to see?
    Ambassador Reeker. Thanks, Senator.
    Mr. Chairman, I think I am extremely optimistic is the 
simple and short answer based on my experience with 
particularly this government under Prime Minister Zoran Zaev, 
the foreign minister, the defense minister. Their dedication to 
meeting the criteria to join NATO, as we discussed, has been a 
long-term goal not just of the government but really of the 
people of North Macedonia across all different lines, across 
political divides. This has been their goal. And they have a 
very credible and well thought through plan fiscally to meet 
that 2 percent criteria.
    They are already, because of the positive benefits of the 
Prespa Agreement, seeing economic benefits in terms of greater 
investment. The trade opportunities that are presented by 
having a very positive relationship with Greece now in terms of 
infrastructure and mobility will pay off results, which means 
they will be in a better position to direct spending on the 
military as required. And we have really seen that. And I think 
a number of you know personally the leadership of both the 
defense minister, the foreign minister, and the prime minister 
and how dedicated they are to this.
    So we are quite confident. And of course, our team on the 
ground under our ambassador and those of us in Washington will 
be working with them hand in hand to hold them to those 
commitments but also to help them with the kind of mentoring 
and advice that we have provided really over the country's 
independence.
    The Chairman. I appreciate that, and I appreciate your 
raising the issue with them. I am not going to ask you about 
your view of the other 22 of our friends and allies who have 
not met that commitment. And I would hope and would urge, as 
chairman of this committee, I want to urge that all of us 
continue to underscore for these 22 allies how important that 
commitment is. All of us over the years have talked to them 
about it, but we always felt that we were being put off and 
patted on the head and told how well they were going toward it. 
And over the last 29 months, we have seen real movement in that 
regard, and I think it is important that we all keep the 
pressure on them for them to understand this is a for-real 
commitment, and it is important to every member to meet that 
commitment, just as it is to meet all commitments.
    So in any event, thank you for doing that.
    And with that, I will turn it over to the ranking member, 
Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Prespa is the reason that we are able to discuss North 
Macedonia's NATO accession, the agreement between Greece and 
North Macedonia.
    What progress has North Macedonia made towards its 
commitment under the Prespa Agreement? What is the United 
States doing either diplomatically or through our security 
assistance programs to support those aspects of Prespa that aim 
to improve ties between Greece and North Macedonia?
    Ambassador Reeker. Thank you, Senator Menendez, because I 
think that is an important thing to highlight.
    The Prespa Agreement, as you know, outlines a timeline for 
full implementation of the agreement and the mechanisms for 
cooperation, including technical, as well as political phase-in 
on the name, ``North Macedonia,'' and of course, some of that 
is also tied to North Macedonia's opening of EU accession 
chapters.
    I have long believed--and I think we have had these 
conversations--that North Macedonia and Greece can be, should 
be, and are naturally poised to be the best of friends. And as 
allies and potentially soon EU members, they are really working 
in that direction. The agreement, like any agreement, does take 
time to implement, but I think we have seen strong support. 
There is a bilateral joint commission on historic and education 
matters that has been established that is already meeting. A 
group of experts has been established to advise on commercial 
and trademark use. And most importantly, they are taking it 
seriously at both an official and a private business level.
    And so the United States has remained ready, as we were 
over the past 25 years, but particularly during the period when 
the two governments showed the courage and the true leadership 
to come together and resolve this issue that they have our 
support and our backing as they move forward to implement this.
    My colleague may be able to describe more some of the 
security assistance.
    Ms. Wheelbarger. Just briefly, I think our continued focus 
on NATO interoperability, modernizing of their forces, and 
joint exercises is a key focus of not only their ability to 
partner with all of NATO, but Greece in specific.
    Senator Menendez. Secretary Reeker, while North Macedonia 
has made progress in addressing the rule of law issues under 
Prime Minister Zaev, the country has made a lot of progress on 
the rule of law in the 2000s before it slid back in 2008 to 
2015. How would you assess the durability of North Macedonia's 
ongoing rule of law reforms? What are the most substantial 
outstanding areas of democratic reform to be undertaken in 
North Macedonia?
    The mandate for the special prosecutor dealing with the 
2015 scandals expires next year. Should the U.S. advocate for 
the appointment of another special prosecutor to deal with 
corruption cases?
    Ambassador Reeker. Thank you, Senator.
    I have, of course, seen the progress that North Macedonia 
made in its early years emerging from the break-up of 
Yugoslavia as the only one of the Yugoslav republics not to 
experience war. And of course, the support from the United 
States and the international community was important in that, 
including U.S. troops that participated in the UNPREDEP 
deployment back in the 1990s. Their support for our goals 
during the Kosovo war was unprecedented in terms of refugee 
flows and working----
    Senator Menendez. I appreciate that, but since I have 
limited time, I am trying to get to the rule of law reforms.
    Ambassador Reeker. And so, as you saw, they made tremendous 
reform, and then after the Bucharest decision, the government 
in power at the time slowly began backtracking on these things. 
And I know Senator Shaheen visited us and saw, witnessed what 
we had there.
    The Macedonian people spoke, and they did not cave in to 
the previous regime's methods and efforts to prevent a 
resolution of the name issue. And I think they have shown now a 
dedication to this.
    They do have to finish the process on the special 
prosecutor. That is an important aspect. The prime minister 
realizes that and has spoken to us. Our embassy is regularly 
engaged on that. I feel comfortable and confident that they are 
dedicated to doing this----
    Senator Menendez. Should we seek reappointment of a special 
prosecutor?
    Ambassador Reeker. I think that is something we have to 
continue talking about. I think it plays an important role, and 
we do want to see that organization, that institution, which 
has been crucial to the forward movement, and we will continue 
to talk to the government about that.
    Senator Menendez. Very quickly, Ms. Wheelbarger, I am going 
to submit a series of questions for the record with respect to 
North Macedonia's military force structure, budget, planning, 
and logistics capabilities. Do I have your commitment to answer 
those questions in a timely manner?
    Ms. Wheelbarger. Absolutely.
    Senator Menendez. Thank you.
    The Chairman. Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    Assistant Secretary Reeker, you are well aware of the 
significant geopolitical competition occurring within Central, 
South Central, and Eastern Europe. You mentioned in your 
testimony Russia engaged in a hot war not honoring the 
territorial integrity of Ukraine, China's growing investment.
    One thing I have really become acutely aware of is how 
important the required reforms are for these nations to attract 
investment, to grow their economy, create the opportunity for 
their people. And a huge incentive for the body politic is the 
accession, the joining of NATO and the EU. Can you just kind of 
speak to that with your broad experience in the region?
    Ambassador Reeker. Thank you for that because I think that 
is so critical to the transformation that we have seen in the 
western Balkans so that these countries--this broad area goes 
from being a consumer of security to a producer and supporter 
of security. And it has been, as our foreign policy has 
reflected, the reforms required on both these tracks--there is 
a parallel track, the NATO membership, as well as their efforts 
to joint the EU, which we have supported as a matter of 
policy--that has produced that.
    And I think we saw it in Slovakia, a country that is 
celebrating 30 years since the Velvet Revolution that had its 
own challenges after the Velvet Divorce in terms of democracy, 
but used the path to NATO and to the EU positively with the 
full support of their people, their population, to make those 
necessary reforms and now are a strong ally and an economy that 
is booming at a level that would have been thought 
unprecedented just 30 years ago, let alone 75 years ago when we 
liberated Europe and thought about the kinds of institutions we 
needed to build to build a Europe whole and free. And so I 
think that has been a key motivating factor.
    I know I saw in North Macedonia these were the criteria 
they laid out. This was how they developed policy. This was 
where we directed our assistance dollars, whether it was in the 
financial sector or in civil society, and certainly on the 
military side. And we are seeing the fruits of those efforts, 
which contributes then to the security of the whole 
transatlantic area and to the American people.
    Senator Johnson. So if the ability to join NATO and the EU 
would be cut off, that would be a really bad thing for the 
region. Correct?
    Ambassador Reeker. I think it has been a very positive 
force for the region and the backbone of our policy certainly 
in the Western Balkans.
    Senator Johnson. Ms. Wheelbarger, a group of more than 50 
Members of Congress went to the Munich Security Conference, 
sending a very strong signal of how important we view those 
friendships, those alliances. In a meeting with Secretary-
General Stoltenberg, one of the members questioning, really 
from the standpoint of a devil's advocate, the enlargement of 
NATO, about the only negative aspect there is. I mean, should 
we really be called upon to defend such a small country. I 
thought the Secretary-General's answer was--and I do not want 
to put words in his mouth, but basically was very simple saying 
we want to enlarge NATO because a larger defensive organization 
like NATO is just a good thing.
    Can you speak to that from the standpoint of the defensive 
nature of the alliance?
    Ms. Wheelbarger. Sure, of course.
    From the Department of Defense's perspective, the continued 
enlargement of NATO with countries that meet the requirements 
is a net gain for our collective security and the security of 
the transatlantic alliance. A country like North Macedonia, 
though small, brings significant capabilities to the defense 
posture in the region and also provides significant stabilizing 
force to what has historically been a very destabilized region. 
So we actually do see the continued progress on NATO 
enhancement and enlargement as a net positive for our 
collective security.
    Senator Johnson. I have always felt, as important as the 2 
percent commitment is, how that money is spent is maybe even 
more important. Can you talk about the strategic type of 
resourcing and development of individual militaries of these 
different nations in terms of its interoperability and 
cooperation within the NATO alliance?
    Ms. Wheelbarger. Absolutely, and that is a key aspect of 
not only members that are already in NATO but those that are 
aspiring to be in NATO is that they seek our input and our 
cooperation on how to become more interoperable and how to 
reform and advance their militaries in a way that is Western-
aligned, which has a significant, obviously, counter-Russian 
influence just from the beginning.
    As we have seen with North Macedonia and their strategic 
defense review, we worked closely hand in glove with them as 
they developed that, right-sized their military to ensure that 
they have the proper mixture of senior officers to junior 
officers and also a desire to truly create an NCO corps which 
is seen throughout the world as key to military success. So 
again, having the aspiration to join NATO has already allowed 
North Macedonia to make these significant steps forward in a 
way that protects themselves and protects the transatlantic 
alliance.
    Senator Johnson. Well, thank you. Thank you for your 
service.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Johnson. That was an 
interesting point you raised that we have all talked about and 
that is the wisdom of the expansion of NATO. And I think if the 
Georgians were here, we have two regions still occupied by the 
Russians from recent activity, and the Ukrainians were here 
that have one full and one other partial occupied by the 
Russians, I think they could make a very powerful argument as 
to why expansion is an appropriate idea. But a good thought.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    I would like to begin by echoing your comments and those of 
Senator Menendez in recognizing the political courage and 
leadership that it took for both Greece and the Republic of 
North Macedonia to sign the Prespa Agreement. I think that is 
political courage that we do not often see, and so I think we 
should all remember that it is important to recognize that.
    You both talked about the Russian attempt to disrupt the 
agreement between Greece and North Macedonia. And we have seen 
their influence perhaps even more notable in other parts of the 
Western Balkans, in Bosnia and Herzegovina and Serbia.
    So can you speak to, Mr. Reeker, first how bringing North 
Macedonia and Montenegro perhaps into NATO helps to 
counterbalance that influence in the region?
    Ambassador Reeker. Thank you, Senator. It is an important 
question because these are countries that have demonstrated 
clearly that their orientation is to the West. We share broadly 
a set of values in terms of democracy, in terms of respect for 
freedom for the rights of the citizen and free markets and 
collective security. And so by having these countries work 
through the path of reform necessary to meet the criteria to 
join NATO, they demonstrate, with the full support of their 
populations, obviously, that that is their direction. And they 
have not succumbed to some often powerful efforts by the 
Russians' malign activities and intents to disrupt, to sow 
discord, in the case of North Macedonia, to attempt to divide 
with false information, misleading stories, alarmist and 
fearful ideas of what would happen in terms of the Prespa 
Agreement.
    And the people have shown wisdom by coming together not 
allowing the ethnic card to be played, but instead saying we 
have a goal that we have set out now over two or three 
generations since our independence and since setting our sights 
on integration into the Euro-Atlantic family. And I think by 
bringing them in as the 30th member of NATO, they will see the 
real accomplishment of that and they will work with us in the 
region as well to support our values and counter this Russian 
effort.
    Senator Shaheen. Thank you.
    Ms. Wheelbarger, in your testimony you said that North 
Macedonia has worked closely with the United States to counter 
Russia in cyberspace. Can you elaborate on that a little bit 
and why that is important?
    Ms. Wheelbarger. Sure, absolutely.
    And I will just echo the thoughts of my colleague in terms 
of North Macedonia's ability to counter the Russian influence.
    We have recently met with their minister of defense, and it 
was quite elucidating, the experience they had at being able to 
counter the message before the messages were delivered. They 
were very adept at being able to estimate what kind of messages 
they thought Russia would deliver to try to upset the vote and 
prepare their population for their messages and counter them 
before they were even delivered.
    Senator Shaheen. Can you talk about--because maybe there 
are some lessons there that we should take as we look at our 
upcoming elections--how did they prepare their populations? 
What kinds of things did they do?
    Ms. Wheelbarger. My understanding, based on our study and 
conversation with the minister, is they first established what 
they thought would be the messages, what were the key themes 
that Russia was likely to deploy. One of those, of course, is 
anti-NATO rhetoric. Others, of course, would be sowing ethnic 
strife within the country. So my understanding is their senior 
leadership made it their responsibility to have the 
conversation with their people and to explain you should expect 
these kind of messages from the Russians and sort of do not 
fall for it. And they had a pretty significant impact, we 
assess, on the outcome of that vote. So I have suggested that 
we could most significantly learn from their experiences.
    Another key reason that our alliance with these countries 
are so valued is because they are on the front lines of a lot 
of this malign influence. And we can learn and adapt from them. 
And that is similar in the cyberspace arena. Especially during 
the last election, we had teams in the region watching and 
learning from what they were seeing in attempting to counter it 
in the cyber realm. And that was important for our own election 
because what we see there is going to come next year.
    Senator Shaheen. Thank you.
    Can you both speak briefly just of how important it will be 
for the United States Congress to move this accession agreement 
as rapidly as possible so that the rest of our NATO allies see 
that, and how do you think they will respond to that?
    Ambassador Reeker. Senator, I think our allies, of course, 
always take cues from the United States. We have led the 
alliance now for 70 years. There is unanimity within the 
alliance that North Macedonia should become the 30th member. I 
think our movement quickly on this would demonstrate not only 
that we support something that we have stood behind for a long 
time, but how important NATO is and illustrate not only to the 
other allies, but to the rest of the world, including our 
adversaries, that NATO is going strong, expanding as we have 
discussed, and increasing the security for all of its members 
as a defensive alliance.
    Senator Shaheen. Thank you.
    Ms. Wheelbarger. And I will just quickly add even holding 
this hearing now is extremely important because we are coming 
upon our defense ministerial at the end of June. So the 
prioritization of this committee to hold this hearing now is 
very important because we can highlight to our allies, when we 
head to Brussels in June, that we are taking this significant 
step.
    Senator Shaheen. Well, thank you both very much.
    Mr. Chairman, I hope we can move out of this committee, as 
quickly as possible, the accession agreement.
    The Chairman. The chair is committed to that proposition. I 
have already discussed it with leadership. They are aware of 
our sense of urgency on this matter. I think it is in 
everyone's best interest to get this done. So I commit to you 
that we will continue down that road.
    Senator Cardin, welcome.
    Senator Cardin. Thank you, and let me thank our witnesses.
    I certainly concur in the comments that have been made 
about the importance of NATO and the importance of NATO 
accession, and the fact that North Macedonia would have been in 
NATO by now but for the issues the concerning politics of its 
name. I recognize that.
    But I also recognize that we have NATO partners today that 
made certain commitments about values that, if we were voting 
today, we may have questions as to voting for their accession. 
And Macedonia has had a history of challenges in regards to its 
commitment to basic rights and fighting corruption and 
democratic institutions. They certainly are on the right path 
at this particular moment. I would acknowledge that. But we 
would like to use the accession process to have a sounder 
foundation for confidence that this country will, in fact, live 
up to the commitments of the NATO alliance as it relates to 
values.
    So I would just like you to respond as to how we should use 
this time, as we are considering accession, to give us the best 
chances that North Macedonia will remain true to these 
principles and resist the internal politics that we have seen 
occur in other countries backsliding on democratic commitments. 
What advice do you have for us?
    Ambassador Reeker. If I may, Senator. Thank you for the 
question because I think North Macedonia has been a really good 
example of this.
    We saw a government come to power in 2006. We thought we 
could work very closely with that government. We were, of 
course, open to working with whatever democratic government 
there was.
    After 2008 and the Bucharest Summit, when I then arrived as 
ambassador, we saw an erosion, the erosion you are all aware of 
and talking about. And we raised this repeatedly that we 
understood the frustrations. They had made all these steps 
towards meeting the criteria at Bucharest but were faced with 
this political challenge. And what we tried to do was work with 
them to find a way forward and resolve the name issue. Instead, 
what we saw was lack of real commitment to doing that and a 
consolidation of power and the backsliding on a number of areas 
and real concerns about corruption, sowing divisions within the 
society.
    But the people of North Macedonia, the Macedonians, the 
Albanians, all the other ethnic groups within the country, 
said, you know, we are not going to fall for this. And our 
orientation is West and we are tired of corrupt leadership and 
we want to see this issue resolved and we want to move forward 
to NATO and EU. And I think that is the best statement.
    And we can continue to encourage that. They have robust 
politics in North Macedonia, and that is a good thing. It is a 
small country. People all know each other. But the United 
States can play a strong role there. And by meeting these 
criteria, they will have not only realized what they have 
dreamed about for some time with the full ratification and 
becoming the 30th member, I think that will be a very solid 
lesson not only in that country but for other countries in the 
region where we are still working to overcome some of the 
challenges. And Macedonia is a tough neighborhood, the great 
geographic area. North Macedonia has demonstrated how to 
survive and thrive in a tough neighborhood, and we can be a 
part of that.
    Senator Cardin. So with Montenegro part of NATO and North 
Macedonia on the way to becoming part of NATO, how does that 
change the dynamic, if at all, in regards to Serbia and Kosovo? 
Is this a positive step or does it tend to put more pressure on 
Serbia--perhaps more vulnerability to Russia--as a result of 
the NATO expansion?
    Ambassador Reeker. Senator, I think it is a very positive 
step. And the Prespa Agreement was the greatest accomplishment 
in the region in terms of stability and peace since the Dayton 
Accords. And, again, it was due to the courage and true 
leadership and convictions of both sides, in Greece and in 
North Macedonia, who said we need to do this. It is difficult. 
It is painful. But we can do this, and with the help and 
support of the international community, including the United 
Nations mediator.
    And I think that sent an important signal to the rest of 
the region. It gave impetus to the Kosovo-Serbia talks, which 
need more impetus. I think seeing North Macedonia actually 
benefit from the results that the West, that the alliance, and 
now with the European Union considering the next steps in North 
Macedonia's accession as a member of the EU also reinforced 
that. And so this is a crucial important step.
    Going back to Bismarck 2 centuries ago, we are solving what 
was called the Macedonia problem. North Macedonia is the 
answer, and they are providing stability in the region, 
providing good neighborliness to Greece and a model for Serbia, 
Kosovo, and also for Bosnia to resolve all of these issues and 
demonstrate the Western orientation despite efforts by Russia 
to disrupt and divide.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Two comments and I will try to squeeze in two questions.
    The first is to align myself with, I think, the direction 
of the comments of the chairman. A few of us were at dinner 
some years ago with one of the key national leaders inside the 
NATO alliance, and that leader was making the case that had 
Georgia and Ukraine been inside NATO, that we would be at war 
currently with Russia in two different countries. Others of us 
around the table were of the opinion that had Ukraine and 
Georgia been inside the alliance, that we would have sovereign 
and independent countries without Russian invasion or 
interference. So that is why many of us are very glad that this 
agreement is before us and we can bring yet another country 
into the alliance.
    This took not just courage but incredible leadership. There 
were great obstacles on both sides of this agreement prior to 
it getting done. And I am glad that we are recognizing both the 
leadership and courage inside of its accomplishment by moving 
this very quickly.
    Ms. Wheelbarger, I wanted to talk to you a little bit about 
how the work that Macedonia has done to counter Russian 
interference pairs with our debate about the expectations we 
have of NATO members to be in good standing. The fact of the 
matter is the tools that Russia is using to try to do damage to 
the alliance often are met with capabilities that are outside 
of the formal defense structure. And so when Macedonia is 
spending money through the foreign ministry on countering 
propaganda and trying to set up capabilities to distill real 
information from false information, that does not get counted 
towards their 2 percent quota.
    I have made this case before in this committee, but I think 
we generally are gifting the Russians when we only think of 
your participation in NATO through the prism of how many planes 
and how many tanks and how many soldiers you are employing.
    Is the work that Macedonia has done here successfully so 
far not an advertisement for why we might want to have a little 
bit broader understanding of what countries need to do in order 
to be members of NATO in good standing?
    Ms. Wheelbarger. Yes. Most certainly whole-of-government 
approaches to countering whether it be Russia or any threat we 
might face as an alliance is key to the success of the alliance 
and to our collective security.
    I do think NATO does have a very thoughtful process in 
terms of what capabilities and what spending should count 
towards the 2 percent and the 20 percent, which was a very 
conscious, concerted effort on the part of NATO to develop the 
kind of--to have the money attached to the requirements for the 
actual defense of the collective security.
    That being said, of course everything the United States 
does, for example, in the information realm, whether it be 
through the State Department's Global Engagement Center or 
other activities of our interagency, is important to our own 
security. But in a certain sense, we do have to sort of draw a 
line somewhere in the sense of what will count for hard numbers 
and what will not.
    Senator Murphy. I agree. I agree. But we tend to over-
obsess in our discussions about NATO with respect to this 2 
percent number. I would also argue that the country is making a 
concerted effort to break itself from energy dependence on 
Russia, which in no way counts towards the 2 percent standard. 
Their decision and investment in doing so probably contributes 
much greater to their security than the collective security of 
the alliance than the decision to stand up another set of 
capabilities inside a relatively small military. So let me just 
leave that where it is.
    Ambassador Reeker, I wanted, while you are here, to get the 
opportunity to talk to you about another important subject 
connected to our transatlantic alliance, and that is the very 
confusing position of this administration on the ongoing Brexit 
negotiations. The President, no doubt, has been a cheerleader 
for Britain's departure from the European Union. I think that 
is a grave mistake for the future of transatlantic security.
    While I was in Britain talking to them about this subject a 
few month ago, the President's son wrote an op-ed for a major 
British newspaper that went so far as to say that the pending 
agreement before the parliament, which would have protected the 
Good Friday Agreement, was an abandonment of the referendum. 
That was clearly believed to have been administration policy 
given that no one there thinks the President's son puts op-eds 
in major papers without authorization from the administration.
    But then just days after that, the Secretary of State was 
before our committee claiming that it was still the U.S. 
position to try to make sure that the peace process in Northern 
Ireland was protected.
    The President was very enthusiastic about a trade agreement 
while he was there as a reward for Britain's departure from the 
European Union.
    Have we laid down any conditions for that trade agreement, 
for instance, that Brexit be done in a way that does not harm 
the Good Friday Agreement, the Belfast Agreement? Are we making 
it clear that we have some interests that we want to be 
protected throughout the Brexit process and might be a 
condition for them entering into negotiations with us on a 
trade agreement?
    Ambassador Reeker. Thanks, Senator. I obviously stand with 
Secretary Pompeo and his recent remarks there. As you know, he 
has also been recently in the U.K., and I joined him a couple 
weeks ago on a visit there prior to the state visit.
    As we said, we support a Brexit outcome that maintains 
global economic and financial stability and minimizes 
disruption to the transatlantic commercial and security ties 
and preserves peace and stability in Northern Ireland. We have 
made that very clear, and it is something we watch closely.
    We do stand ready to negotiate an ambitious free trade 
agreement with the United Kingdom as soon as they are ready to 
do so, as the President has said, and such a free trade 
agreement between the United States and the U.K. can have 
tremendous benefit for both countries. We have also been very 
clear that we want to continue our strong partnership with the 
European Union as well.
    Senator Murphy. Is the preservation of the Good Friday 
Agreement a precondition for those negotiations on a free trade 
agreement?
    Ambassador Reeker. I think what we said is we are prepared 
to negotiate an ambitious free trade agreement. We have not 
established yet the full criteria there, but I think that 
remains. And we have repeatedly said preserving peace and 
stability in Northern Ireland is critical. The Good Friday 
Accords are vital there. There is a robust democratic system in 
the United Kingdom, and they will make sovereign and democratic 
choices when it comes to Brexit.
    Senator Murphy. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Murphy. I think that your 
observations are quite profound regarding the value issues for 
membership in NATO. We do have a tendency to count planes and 
soldiers and what have you. Before you can even sit down at the 
table like that, they have got to be a country that is bound to 
us by the kind of values. And I think that was very profound.
    Regarding your comments on Brexit, why do we not leave 
those for another day? The Rubik's cube will be explored no 
doubt at some point by this committee. Thank you very much.
    Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman.
    And thank you to both of you for your testimony and 
service.
    As I mentioned to you in the interim prior to the hearing, 
I have been bouncing back and forth to a Helsinki Commission 
hearing and a Commerce Committee hearing. So I apologize for 
being late.
    You may have already discussed some of these questions, so 
if I am asking a question that has been asked before, I 
apologize.
    One of the challenges we have seen in NATO--and I am a 
strong supporter of NATO and serve on the Senate NATO observer 
group, which I think is one of the key architectural frameworks 
this world has ever seen. I have even talked about perhaps some 
day we could see a NATO-like structure in Asia. It has got a 
ways to go, but obviously the power of NATO, the interests that 
unite us, the ability to respond to threats that we face with 
mutual values is incredibly important.
    One of the challenges, though, we have seen in NATO and I 
think one of the questions that has rightfully been asked is 
issues of defense spending and contributions and those kinds of 
things. And perhaps you addressed this already, but would you, 
Ms. Wheelbarger, be able to talk a little bit about the defense 
spending and what you think would happen?
    Ms. Wheelbarger. We did speak about it a little bit 
earlier, but maintaining a focus and ensuring that all allies 
remain committed to their 2 percent and 20 percent Wales pledge 
continues to be a major effort in all of our defense 
ministerials, and it will be a topic of conversation again 
coming up here at the end of June.
    We also like to highlight that it is three C's. It is cash, 
commitments, and contributions. So the importance of allies 
contributing to missions that are important for the alliance 
such as Afghanistan and the RSM mission and OIR continue to be 
a focus of our efforts as well.
    Senator Gardner. Thank you.
    Secretary Reeker, one of the things that we discussed just 
at the Helsinki Commission hearing this morning--we talked a 
little bit about the counterterrorism efforts that Russia has 
made both within and without the country that have the effect 
less of counterterrorism and can be counterproductive actually 
to U.S. values, U.S. ally values, and used less as a 
counterterrorism tactic but perhaps more as a geopolitical 
strategy to push back against U.S. or allied interests.
    Could you talk a little bit about this accession and what 
it means and what we have seen out of Russia?
    Ambassador Reeker. Thanks, Senator. We did touch on that a 
bit in noting how North Macedonia has consistently stood up 
against the Russian malign activities there. The Prespa 
Agreement has faced a lot of efforts at disruption to that by 
Russian activities not only in North Macedonia but also in 
Greece, particularly in northern Greece. And the people have 
spoken with strong efforts by the leadership on both sides of 
the governments to counter that. And I think what we are 
seeing, as they make their way and will become, with the 
support of this committee, the 30th member of NATO, a real 
decisive statement about the importance of that.
    And that goes for counterterrorism, which President Trump 
has highlighted as an important thing for NATO to focus on, and 
they have. The efforts not only, of course, in Afghanistan and 
training missions in Iraq, efforts by NATO to focus resources 
on counterterrorism have been joined by countries like North 
Macedonia, soon to be a member, but as a partner signed up to 
the global counter-ISIS group. They have made real 
contributions there.
    Senator Gardner. Should NATO members, should European 
nations, the United States, others--should we be pushing more 
on the OSCE to be a more effective voice in pushing back 
against some of the counterproductive activities Russia has 
pursued, whether it is at the United Nations or any other 
forum?
    Ambassador Reeker. The OSCE I think is a terrific forum 
that is often--I do not want to say forgotten, but does not 
have the profile perhaps that NATO does. But it is another 
institution that was created in the post-World War II era. 
Particularly during the Cold War, it gave us valuable 
opportunities for the types of engagement. OSCE has played a 
very important role in the Western Balkans, including in North 
Macedonia, over the years. This committee and the full Senate 
have confirmed a new U.S. Permanent Representative to the OSCE, 
and we very much look forward to Governor Gilmore taking up his 
role there where I do think the OSCE has an important role to 
play.
    Senator Gardner. Should we be doing more to push back and 
to express----
    Ambassador Reeker. I think it is one of the tools and 
avenues that we have, and we will continue to do that robustly. 
And we look forward to continuing to work very closely with the 
Helsinki Commission on how we do that.
    Senator Gardner. Do you think OSCE has done enough at this 
point?
    Ambassador Reeker. I think one can always do more. OSCE is 
a robust organization with a lot of members in it. It is a 
platform. And in fact, I am meeting with the OSCE chairman in 
office. I met the chairman in office from Slovakia last week, 
and I am meeting with the Secretary-General this week. And we 
will continue to look at avenues they can do and welcome your 
thoughts on that.
    Senator Gardner. Thank you.
    The Chairman. Thank you, Senator Gardner.
    Senator Kaine, your patience is admirable.
    Senator Kaine. Thank you, Mr. Chair.
    It has been a great discussion, and I want to thank the 
witnesses for this.
    I add my words to those that you each offered and Senator 
Shaheen congratulating Greece and Macedonia for the diplomacy. 
I noticed May 31st both countries opened up embassies in each 
other's capitals, which was a positive sign. I think the timing 
of this hearing, as you said, Ms. Wheelbarger, is good because 
of the upcoming ministerial level meeting.
    A comment about NATO, and then, Ms. Wheelbarger, I want to 
talk to you about DOD cooperation, mil-to-mil cooperation.
    So NATO, 70th year. I do think it is very important for us 
to continue what is clearly a consensus here, DOD, State, the 
administration, colleagues on both sides of the aisle 
emphasizing the importance of NATO. I was in Paris giving a 
speech on the 70th anniversary of NATO in March, and the 
questions I was getting were really interesting.
    You know, the President makes some statements that make 
people wonder about him, and I expected I might get questions 
about him. But actually the questions I got were more about the 
American public. Is the American public supportive of NATO? 
Presidents can be here for 4 or 8 years, and there can be other 
Presidents. But what does the American public think about it?
    I have a bill that I have introduced that is pending before 
this committee that is bipartisan that would clear up a legal 
ambiguity. The bill basically says that just as it took Senate 
ratification of a treaty to get into NATO, we should not get 
out of NATO unless either by a Senate vote or an act of 
Congress. That is not particular toward any President, but it 
is an expression of will, that Congress believes this is 
important. And I would hope that that might be something we 
could take up.
    I am very open. It is a bipartisan proposal, but 
amendments, changes, making it better. But because the 
questions that I was getting were about what do the American 
people think about the relationship at 70, something like that 
I think can be a very strong statement. And I actually think 
constitutionally it would be wise.
    I think it would be an appropriate policy to say that a 
treaty of this magnitude that is accepted with such a 
consensus, that was entered into with a Senate two-thirds vote 
should not be set aside unilaterally by anyone.
    I am also happy to tell my colleagues that in the Armed 
Services Committee, the NDAA, the text of which is being filed 
today, includes an amendment that says if any President were to 
say we should get out of NATO, no funds could be used to remove 
American troops from NATO missions for a year, giving Congress 
the ability to grapple with that and decide whether that was a 
direction the country wanted to go.
    But I hope we might be able to take this matter up in some 
form and express powerfully that the Senate and Congress 
believe we should stay in NATO until we make a decision that we 
should get out of NATO.
    I want to ask you, Ms. Wheelbarger. You talked a little bit 
about IMET and joint exercises. And the commitment of North 
Macedonia in troops to Afghanistan and other missions has been 
really powerful.
    Talk to us a little more about the kinds of ongoing 
training that we are doing together with folks coming to our 
country for training, the likely exercises in the future. You 
mentioned a couple of them that North Macedonia will do 
together with U.S. troops. Because I think this is really 
important to build relationships, build capacity, send a 
message that is ultimately a message of deterrence.
    Ms. Wheelbarger. Absolutely, happy to do so.
    I think our mil-to-mil relationship with North Macedonia is 
an exemplar for other countries. Their willingness to take our 
advice and be true strategic partners when it comes to 
particularly their strategic defense reforms, which from the 
Department of Defense view, when you are talking about what 
kind of training has the longest-term effects for a country, 
not only the training that they can do in the United States 
through the IMET program, which I will get you specific numbers 
of who is here in the country right now from North Macedonia, 
but in terms of defense institution building. And I know this 
body, the Senate, has been a big advocate for that for many 
years.
    The importance of that I do not think can be overstated 
simply because ensuring the proper civ-mil relationships, 
ensuring the anti-corruption efforts throughout defense 
industries and throughout defense institutions, having the 
right mixture between officers and enlisted, the right mixture 
between senior officers and junior officers, this can be a 
foundational core for any society.
    We heard earlier the concerns about backsliding for a 
country like North Macedonia that had some trouble some years 
in terms of their democratic values. We do believe that mil-to-
mil relationships and MOD-to-DOD relationships can provide a 
background of stability in some ways for those values. Again, 
if a country can get their defense institutions right, 
particularly on values of anti-corruption, values of 
meritocracy, that has an enduring foundation throughout the 
rest of the institutions of that society.
    Senator Kaine. I would also add a value that militaries 
could often perform in a wonderful way are inclusion in any 
society where there is ethnic strife. The Russians were trying 
to amplify that to oppose the agreement with Greece. They often 
go at these ethnic tensions and try to drive them. And if you 
have a military where in the leadership and in the ranks, 
everybody is represented, everybody is treated equally, that 
often is a really powerful example. And I know that is one of 
the things, when we do training, we really work with other 
nations to try to model. So I would encourage you to continue 
in that good work.
    Mr. Chair, thank you.
    The Chairman. Good remarks. Thank you very much, Senator 
Kaine.
    Thank you so much. If you will be patient with us for just 
a few more minutes. Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman. I have two final 
questions.
    Mr. Secretary, the European Commission has recommended that 
the EU start accession talks with North Macedonia, but my 
understanding is that several EU members are reluctant to start 
those talks. Last week, Prime Minister Zaev warned that he may 
call early elections if the EU does not give a date for 
starting talks this summer.
    How would you assess the status of North Macedonia's EU 
accession and what impact would delaying those talks have 
domestically in North Macedonia?
    Ambassador Reeker. Thank you, Senator, for the very timely 
question. It is a subject we have been discussing in my 
meetings with European counterparts. In fact, we were in Berlin 
just last week underscoring the U.S. support for North 
Macedonia's European perspective and the start of talks. We all 
welcomed the European Commission's report for North Macedonia, 
as well as for Albania. Our encouragement has been to look at 
each country on their merits, and I think there is widespread 
support for North Macedonia to move forward with its EU 
membership, particularly with the Prespa Agreement having 
resolved the name issue.
    Some countries, some member states do have their own 
political calendars. That is something that colleagues have 
highlighted for us. Whether June becomes the exact date for 
starting the accession talks or announcing a date to start is 
not yet certain. I think there is still time for that to be--if 
it is June, if it is July.
    Our advice certainly to Prime Minister Zaev and others is 
to look at how far you have come in this path that you have 
taken. They have done all the right things. That has been 
acknowledged by the commission, and I think North Macedonia 
beginning to open these chapters necessary to become a full 
member of the European Union is a foregone conclusion. The 
exact timing is something for the Europeans to work out.
    Senator Menendez. Outside of the timing, if the timing 
delays to a point, what is the purpose of the prime minister 
suggesting that he is going to call some snap elections?
    Ambassador Reeker. Well, politics in North Macedonia is 
complicated, as it is in many countries. I think he continues 
to demonstrate that he has strong support, a strong mandate, 
and that is something he wants to highlight. But this is a 
reason that we have highlighted to our European colleagues both 
in Brussels institutionally but with individual member states 
our belief and the efforts we have made to help move this 
forward and why it would be in everybody's interest to let them 
begin that process as soon as possible.
    Senator Menendez. One last question. China has invested 
hundreds of millions of euros in North Macedonia's 
infrastructure as part of its 17 plus 1 initiative in Eastern 
Europe. And Prime Minister Zaev has stated that he wants to 
expand North Macedonia's cooperation with China.
    Now, I remain deeply concerned about the threat China's 
investments, particularly in the telecommunications sector, 
pose to the security of the United States and our allies. We 
have seen time and time again that Chinese investment is 
manipulative at best and coercive in some of its worst forms.
    Have you had discussions with North Macedonia regarding 
future Chinese investments, how they impact NATO's security? 
And what measures are you taking to ensure that North 
Macedonia's engagement with China does not negatively impact 
NATO?
    Ambassador Reeker. We have had those conversations, as we 
have with so many countries, highlighting our concerns about 
Chinese geopolitical and strategic goals, warning of what we 
have seen in other parts of the world. I think North Macedonia 
and its leadership have wide open eyes about that. They do want 
to pursue opportunities in terms of trade and markets, but they 
have to do that knowing about the risks, particularly when it 
comes to things like telecommunications infrastructure. So as 
we have with others, we have highlighted that.
    They are going to make their own decisions, but I think 
they understand and they are keenly attuned to the concerns 
about NATO membership when it comes to telecom infrastructure, 
as the 5G issue has illustrated. And we will continue to have 
those conversations. In fact, I find them quite welcoming of 
the conversations and the information that we can provide to 
them to highlight some of the risks and concerns.
    Senator Menendez. This is an example of why we not only 
need to confront China, but we need to compete with China so 
that countries have other opportunities at the end of the day 
to choose other than Chinese investment.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Well said, Senator Menendez.
    Well, thank you to both of you for providing us with the 
benefit of your testimony, your information, and your expertise 
in this area.
    For the information of members, the record will remain open 
until close of business on Friday. There has already been an 
indication that there are going to be questions for the record. 
So if the two of you would, as promptly as possible, respond to 
those inquiries, it would be very, very helpful to move this 
thing forward.
    So with that, we are adjourned.
    [Whereupon, at 11:35 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


              Responses of Philip T. Reeker to Questions 
                  Submitted by Senator Robert Menendez

    Question. As part of its NATO and EU accession processes North 
Macedonia has made a number of reforms:

    What specific reforms has North Macedonia made thus far to tackle 
corruption; improve the judiciary; strengthen the electoral system's 
credibility; and clean up the bureaucracy and especially the 
intelligence services? What are their reform plans for those areas 
going forward? What is the current and future role of the U.S. in 
supporting those reforms?

    Answer. Over the past year, the Government of North Macedonia made 
significant progress in implementing reforms needed for the country to 
align with NATO and EU standards. We agree with the European 
Commission's May 29 accession report which confirms North Macedonia has 
made significant reform progress in a range of areas including 
strengthening rule of law and judicial independence, media freedom, 
transparency, intelligence reform, and government accountability. The 
Parliament passed significant judicial reform legislation this spring 
with opposition support, including amendments to laws governing the 
courts, Judicial and Prosecutorial Councils, administrative disputes, 
and access to information. On intelligence reform, the implementation 
of an independent Operational Technical Agency continues to move 
forward, and in late May, Parliament adopted a law to replace the 
Department for Counterintelligence and Security (UBK) with a new body 
independent of the Ministry of Interior and with increased 
parliamentary oversight.
    Another key step was the enactment of a new Law on Prevention of 
Corruption and Conflict of Interest in January 2019 that provided for 
the re-constitution of the State Commission for Prevention of 
Corruption and Conflict of Interest, giving it greater independence and 
strengthened competencies. It can now examine public officials' bank 
records, political party and election campaign finances, and all 
political appointments, as well as request prosecutions. Reflecting 
these efforts, North Macedonia moved up 14 places between 2017 and 2018 
in Transparency International's Public Perception of Corruption Index, 
now ranking 93rd out of 180 countries surveyed.
    At the government's request, we continue to support these important 
reform efforts.

    Question. During the hearing on Montenegro's NATO accession in 
2016, several members of this Committee noted that Montenegro still had 
work to do on its democratic and rule of law reforms--much like North 
Macedonia does now. How would you assess Montenegro's progress on those 
reforms since it joined NATO?

    Answer. Montenegro is a strong NATO Ally, and we commend its 
commitment to regional and NATO collective security. Montenegro 
provides stability in an unsettled region and offers a positive example 
to NATO and EU aspirants.
    Since 2016, it has made notable strides in advancing democratic 
principles and respect for the rule of law. As part of a package of 
rule of law reforms enacted in the lead-up to its NATO invitation, the 
Government of Montenegro (GoM) established a new independent Office of 
the Special State Prosecutor that handles major cases involving 
organized crime and corruption, and appointed an independent Chief 
Special Prosecutor. A Special Police unit focused on corruption and 
organized crime supports the Special Prosecutor. The GoM also created 
the Agency for the Prevention of Corruption as an administrative body 
to oversee the implementation of anti-corruption laws and regulations. 
These new institutions are supported by a team of U.S. Embassy rule of 
law and police advisors with combined decades of experience. With the 
support and mentoring from Embassy Podgorica, these Montenegrin 
authorities have conducted hundreds of disruption raids against 
suspected organized criminals.
    To further bolster democratic and rule of law reforms, Embassy 
Podgorica also supports civil society and independent media, which are 
important watchdogs on the government; the work of the independent 
human rights ombudsman in Montenegro; and ongoing efforts to make 
Montenegro's law enforcement institutions more professional and 
competent.
    As the State Department documented in the annual 2018 Human Rights 
Report, pervasive corruption--marked by nepotism, political favoritism, 
weak controls, and conflicts of interest in all branches of the 
government--contributes to serious human rights problems, as does 
impunity. Attacks on, and harassment of, journalists, and several 
prosecutions remain unresolved. While some media outlets demonstrate 
willingness to criticize the government, threats of violence and 
economic or political pressure lead to self-censorship or biased 
coverage. Trafficking in persons and crimes involving violence against 
lesbian, gay, bisexual, transgender, and intersex (LGBTI) persons are 
also areas that the GoM needs to address.
    We will continue to advocate for these and our other policy goals 
in Montenegro.?

    Question. Prior to North Macedonia's name change referendum, U.S. 
officials warned of secret Russian efforts to influence the vote by 
funding pro-Russian groups that opposed the name change in both Greece 
and North Macedonia. Russia continues to oppose North Macedonia's 
accession to NATO and in the past it has gone to great lengths to stop 
new countries from joining NATO, even supporting a failed coup in 
Montenegro:

    What actions, whether overt or covert, have we seen Russia take to 
obstruct North Macedonia's accession to NATO? Which individuals or 
organizations received support from Russia in opposition to the 
country's name change, both in Greece and in North Macedonia? Answer 
can be provided in classified format if necessary.

    Answer. Russia has employed malicious tactics against the United 
States and Europe to drive a wedge into the transatlantic relationship, 
weaken confidence in America's commitment to Europe, and undermine the 
successes that we have achieved since the end of the Cold War. It 
continues its aggressive behaviour toward others by interfering in 
elections processes, promoting corrupt practices, and advancing non-
democratic ideas. Toward these malign ends, Russia has worked to 
undermine implementation of the Prespa Agreement with Greece. These 
actions are consistent with Russia's destabilizing activities across 
the region. We have been clear that any efforts to undermine democratic 
processes by a foreign power are unacceptable. We are working with our 
Allies and partners in Europe to identify and expose Russian 
disinformation and to promote accurate messages that advance freedom, 
prosperity, and security in Europe.
    The United States and Russia have very different visions for the 
future of the region. Russia believes its interests are served by 
sowing friction and tensions. The United States believes that the 
interests of the people of North Macedonia are best served by respect 
for human rights, fundamental freedoms, transparency, rule of law, and 
understanding based on shared values and a shared future.

    Question. According to the Open Society Institute's Media Literacy 
Index North Macedonia is the European state least prepared to deal with 
fake news, largely due to challenges with its education system. Russia 
is actively promoting Russian-language media outlets in North 
Macedonia, giving them a vehicle to easily spread disinformation:

    What is the United States doing to help North Macedonia increase 
its resiliency to disinformation campaigns, particularly Russian 
disinformation campaigns?

    Answer. Russia does not accept the post-Cold War choices made by 
countries in favor of integration with the West. In contrast, the 
United States supports EU membership for all the countries of the 
Western Balkans and NATO membership for those that seek it.
    In the case of North Macedonia, Russia has spoken out against the 
country's democratically chosen NATO path and in advance of the 
referendum on the Prespa Agreement it sought to make overcoming this 
long-standing dispute and reaching an agreement on the name much 
harder. The U.S. Embassy in Skopje works alongside the State 
Department's Global Engagement Center to monitor the spread of 
disinformation on Prespa and NATO. In addition, we support civil 
society efforts to analyze and debunk disinformation.
    USAID's Office of Transition Initiatives has provided technical 
assistance to three of the largest and most influential media outlets 
in North Macedonia, improving their ability to counter malign 
disinformation campaigns. The U.S. Embassy also supports training for 
government communicators and journalists to learn how to succeed in 
disinformation-laden environments.

    Question. In a March 2019 report, State's Overseas Security 
Advisory Council reported that approximately 156 North Macedonia 
nationals traveled to join terrorist organizations in Iraq and Syria 
and that 83 of them have returned to North Macedonia:

    Other than the seven who have been convicted and sentenced, what 
has happened to them? What is North Macedonia's strategy for dealing 
with returning foreign terrorist fighters? Do they pose a threat to 
North Macedonia or to NATO forces that may in the country?

    Answer. We commend North Macedonia for repatriating seven of its 
citizens in August 2018, who had been detained by the Syrian Democratic 
Forces (SDF) while fighting for ISIS. In March, these seven Foreign 
Terrorist Fighters pled guilty to terrorism-related offenses, and each 
received sentences between 6 and 9 years in prison.
    With the repatriation and convictions, North Macedonia set an 
important example for all members of the Coalition to Defeat ISIS and 
the international community. As the United Nations recognized with U.N. 
Security Council Resolution (UNSCR) 2396 in 2017 and UNSCR 2178 in 
2014, foreign terrorist fighters are a global problem requiring the 
attention of the global community. International cooperation to address 
the threat posed by foreign terrorist fighters in SDF detention is 
critical. Only repatriation provides a long-term solution to detained 
foreign terrorist fighters who traveled to Syria to join ISIS.
    Further, the government of North Macedonia adopted in March 2018 
the 2018-2022 National Counterterrorism Strategy and a standalone 2018-
2022 National Strategy for Countering Violent Extremism, both 
accompanied by National Action Plans. The National Committee to Counter 
Violent Extremism and Counterterrorism (NCCVECT) partners with the 
international donor community to implement the action plans. This 
cooperation includes programming to prevent violent extremism, develop 
community resilience, and reform prison practices.
                               __________

             Responses of Kathryn Wheelbarger to Questions 
                  Submitted by Senator Robert Menendez

    Question. Ms. Wheelbarger stated that seven North Macedonia 
nationals were convicted of terrorism-related offenses and sentenced to 
6-9 years in prison. What is North Macedonia's plan for ensuring that 
after their release from prison they do not pose a threat to North 
Macedonia or to any NATO forces that may be in the country? How will 
North Macedonia handle any attempt by those nationals to travel abroad 
following their release?

    Answer. North Macedonia remains committed to cooperating with the 
United States and the international community to crack down on violent 
extremists. This commitment is underscored by the fact that in March 
2018, North Macedonia's government adopted the 2018-2022 National 
Counterterrorism Strategy and a standalone 2018-2022 National Strategy 
for Countering Violent Extremism, both accompanied by National Action 
Plans. Following their release, local security services will monitor 
the seven convicted terrorists using physical and technical means. Any 
continued association with ISIS or other terrorist groups would be 
documented and could be used as evidence in future prosecution. North 
Macedonia also maintains a travel watch list, which they actively 
monitor and utilize. The watch list includes any individuals convicted 
of terrorist activities. The Border Police Unit is committed to 
enforcing North Macedonia's border security related laws.

    Question. In a March 2019 report, State's Overseas Security 
Advisory Council reported that approximately 156 North Macedonia 
nationals traveled to join terrorist organizations in Iraq and Syria 
and that 83 of them have returned to North Macedonia. Other than the 
seven who have been convicted and sentenced, what has happened to them? 
What is North Macedonia's strategy for dealing with returning foreign 
terrorist fighters? Do they pose a threat to North Macedonia or to NATO 
forces that may in the country?

    Answer. North Macedonia continues to be proactive, taking a strong 
stance against returning foreign fighters. Local security services 
closely monitor all individuals of concern in a counterterrorism 
context. North Macedonia has sought to investigate, detain, and 
prosecute any individuals associated with terrorism, including the 83 
known returnees. Police operations resulted in the arrest and 
subsequent prosecution of 25 of these individuals; prison sentences 
ranged from 1 to 7 years. Security services continue to investigate the 
individuals who remain at large with the goal of developing enough 
evidence to allow for detention and prosecution. North Macedonia's 
strategy for future returnees is to prosecute them in accordance with 
recently implemented national plans. The North Macedonian National 
Committee to Counter Violent Extremism and Counterterrorism (NCCVECT) 
partners with the international donor community, including the United 
States, to implement the action plans. This includes programming to 
prevent violent extremism, develop local community resilience, and 
reform prison practices, among other areas.

    Question. Ms. Wheelbarger stated that national-level security 
forces are receiving DOD counterterrorism training. How would you 
assess the capability of North Macedonia's local security forces and 
police to handle terrorism issues, particularly returning foreign 
terrorist fighters who may be in their jurisdictions? Is the U.S. 
assisting with training local security forces to deal with terrorist 
threats?

    Answer. North Macedonia's law enforcement capacity to detect, 
deter, and prevent acts of terrorism continues to improve as a result 
of training programs and the development of operational plans to 
prevent and respond to possible terrorist attacks. The U.S. Embassy's 
Office of Defense Cooperation (ODC) and Regional Security Office, 
working with the Department of State's Counterterrorism Bureau and 
Bureau of Diplomatic Security's Antiterrorism Assistance program (DS/
ATA), offered various types of training events for members of the 
National Committee for Countering Violent Extremism and Countering 
Terrorism (NCCVECT), law enforcement officers and investigators, 
prosecutors, and other government stakeholders.

    Question. Please describe how North Macedonia's troop contributions 
have specifically benefitted U.S. and NATO missions in Iraq, 
Afghanistan, and Kosovo.

    Answer. North Macedonia's valuable contributions to regional and 
global security far outweigh its size. Since the Kosovo Force (KFOR) 
mission began in 1999, North Macedonia has continuously provided a 
dedicated element of 13 individuals that provide logistics support to 
KFOR. North Macedonia has deployed 490 military personnel to Operation 
Iraqi Freedom (OIF), 2,700 military personnel to the International 
Security Assistance Force (ISAF) in Afghanistan, and more than 400 
personnel to the Resolute Support Mission (RSM) in Afghanistan. These 
personnel have served alongside U.S. and NATO forces. For example, 
North Macedonian forces conducted a co-deployment with the Vermont 
National Guard, performing base security and staff officer work. This 
represents more than 3,500 personnel that the United States or other 
NATO Allies did not have to send into theater.

    Question. I understand that U.S. forces have conducted some 
training exercises at North Macedonia's Krivolak Training Area and it 
has terrain unlike any other training area in Europe. What specific 
value does access to Krivolak provide for NATO forces? Please provide 
the specific plans that the U.S. and NATO have to conduct exercises at 
Krivolak over the next 2 years.

    Answer. North Macedonia's training area at Krivolak is indeed 
unique and provides substantial value to U.S. and NATO forces. The main 
attraction of the Krivolak training area is the unfettered maneuver 
space that it offers. Krivolak's current usable area allows for a 
battalion-sized maneuver space. Once the northern portion of the range 
is cleared and declared safe of old unexploded ordnance, the training 
area will be even larger, including a total of 225 square kilometers. 
In addition to this, the Ministry of Defense has intentions to expand 
the borders of the training area to encompass 340 square kilometers, 
upon which a brigade-sized element could maneuver. The geographic 
location of Krivolak (3-hour drive from Camp Bondsteel, Kosovo) makes 
it much more attractive, from a cost, time, and mission perspective, 
than having U.S. KFOR units train in Graffenweohr, Germany. The U.S. 
forces to the KFOR mission rotate every 9 months. The last two 
iterations have trained at Krivolak to maintain their warfighting 
skills and readiness, and future rotations plan to continue this 
practice as part of regular training. Currently the 56th Stryker 
Brigade from the Pennsylvania Army National Guard is participating in 
the DECISIVE STRIKE military training exercises in Krivolak. A total of 
approximately 1,300 U.S. personnel will be involved in the exercise, 
the majority coming from the two participating battalions of the 56th, 
with additional soldiers from the 19th Special Forces from the Colorado 
National Guard and personnel from U.S. Army Europe (USAREUR). North 
Macedonia's army is also participating with approximately 1,300 
personnel. Other NATO Allies participating are Albania, Bulgaria, 
Lithuania, and Montenegro. USAREUR is discussing plans to utilize 
Krivolak for its DEFENDER '21 exercise; initial assessments are for a 
brigade-sized force to train at Krivolak.

    Question. I understand that NATO will have to fund infrastructure 
upgrades at the Krivolak Training Area to maximize its utility for 
military training. How much will those upgrades cost, and how much of 
that cost will the U.S. bear? How valuable would such an upgrade be for 
military readiness?

    Answer. North Macedonia is committing national funds to improve the 
training area, including rehabilitation of a previously defunct rail 
line to facilitate transportation of equipment to and from Krivolak 
from other European destinations. NATO would only invest funding if 
doing so would be of direct benefit to the Alliance. The Ministry of 
Defense and the General Staff are currently developing their long-term 
improvement plan for Krivolak. USAREUR and 7th Army Training Command 
have provided recommendations of what to upgrade/construct to enable 
brigade-level operations.

    Question. Ms. Wheelbarger stated that the U.S. is working on a 
bilateral MOU with North Macedonia that is ``intended to guide North 
Macedonia towards its reform goals.'' Upon completion of the MOU, do 
you commit to share the MOU with the Senate Foreign Relations 
Committee? Which reforms specifically does that MOU address? What will 
DOD's role be in helping North Macedonia achieve those reforms?

    Answer. Yes, the document is in final review, and we will share the 
MOU once complete. Specifics will be contained in the final document; 
however, the Department's role in helping North Macedonia achieve 
reform goals will be similar to our role with other partners and Allies 
and will be conducted in accordance with applicable law, policy, and 
regulations.

    Question. I understand that since North Macedonia does not have its 
own air defense capacity, Greece and Bulgaria have volunteered to 
provide air defense support (contingent on acquiring F-16s in 
Bulgaria's case). Will their support be sufficient, or will 
contributions from other countries be required? Which other countries 
would be willing to provide air defense support if needed? Is North 
Macedonia planning on developing its own air defense capacity and if 
yes, on what timeline?

    Answer. The support offered by Greece and Bulgaria is sufficient to 
meet current threats and is also a strong indicator of the Alliance's 
overall capacity to deter or defeat threats in potential threat 
scenarios. Upon accession and full membership, any air defense plan 
would fall under the alliance air defense strategy, which may involve 
other nations as deemed appropriate by military planning and allocation 
of NATO assets. This would like mean that there would be no independent 
requirement for North Macedonia to develop a fixed-wing air defense 
capability.

    Question. North Macedonia is working to reduce the number of 
personnel in both its army and its Ministry of Defense (MOD) in order 
to reduce the share of the defense budget spent on personnel. What 
progress has North Macedonia made with these cuts? Has there been 
opposition from within the military or external groups to the personnel 
reduction and if yes, what impact has their opposition had on the 
process?

    Answer. The North Macedonian Ministry of Defense has made a 
priority of optimizing its defense budget through the reduction of 
defense personnel. The Ministry of Defense's (MoD) plan to reduce the 
number of personnel to 650-700 has been drafted and is in the approval 
process. The reduction of forces in the Armed Forces is a multi-faceted 
transformation plan over the next 3-5 years. The planned method for 
reduction of both the MoD and the Armed Forces is primarily via 
attrition through retirement/separation and a simultaneous reduction of 
authorized billets within the force structure. This approach, although 
not immediate, will alleviate social and political repercussions and 
mitigate opposition to the reduction. There will still be some MoD 
employees who will need to be transitioned to other government agencies 
or to the private sector workforce; however, this is pending approval 
of the MoD reduction plan.

    Question. To improve its budget planning and military procurement 
system North Macedonia needs to change a number of its laws, including 
one that requires government contracts to go to the lowest bidder 
regardless of the quality of their product. Do all key political 
actors, including major opposition parties, support such legal changes 
despite their potential cost? Are companies or interest groups that 
stand to lose from changes to procurement laws opposing those 
improvements and if yes, what impact has their opposition had on the 
legislative proceedings?

    Answer. All key political actors have voiced support for making the 
necessary changes to the military procurement law. There are no 
indications of any key stakeholders planning to oppose the law. 
Additionally, the U.S. Office of Defense Cooperation-Skopje supported 
the North Macedonian Ministry of Defense in organizing multiple 
seminars with members of Parliament and their staff. The purpose of 
these seminars is to: increase and improve executive-legislative 
relationships; increase understanding of Army transformation and 
modernizations goals; jointly develop and understand requirements of 
the MoD and the Army; and determine what the Defense and Security 
Commission needs in order to advocate within broader Parliament for the 
passing of defense-related reform laws.

    Question. Last year the North Macedonia army reviewed its current 
equipment to determine what should be disposed of and what will be 
needed going forward. What progress has North Macedonia made in 
implementing the findings of that review? In particular, North 
Macedonia reportedly has excess quantities of small arms and ammunition 
due to its personnel reduction. What is the government's plan for 
safely disposing of the surplus arms and ammunition such that it does 
not end up in the wrong hands?

    Answer. North Macedonia recognizes the need to dispose of equipment 
properly in order to prevent proliferation or misuse. North Macedonia 
has previously donated small arms, ammunition, and hand grenades via 
U.S.-facilitated weapon donation programs. The majority of the 
equipment was inherited from the former Yugoslav National Army, 
purchased with national funds, or donated from partner countries. The 
plan for divestiture of obsolete and unessential equipment is complete 
and is pending final approval by the Government. The plan calls for the 
disposal of equipment, weapons, ammunition, etc., in the following 
ways: transfer to other government ministries/agencies; sale to 
approved countries; donation to approved countries; demilitarization 
and sale/donation to museums, etc., or destruction and sale as scrap 
metal as appropriate. North Macedonia has identified all obsolete 
equipment, catalogued it in detail, and created a plan to seek the 
required approvals. In order to proceed with the divestiture of donated 
equipment, the MoD must obtain approval from the donating country and 
is proactively addressing this. The list of obsolete equipment is a 16-
page document containing 462 items varying from pistols, rifles, 
machine guns, ammunition (7.62 and 20mm), mortars and ammunition (60mm, 
82mm, and 120 mm), 76mm guns, 122mm Howitzers, 20mm Anti-Aircraft guns, 
a variety of unguided rockets of multiple calibers, and a variety of 
spare parts and tools. North Macedonia has requested U.S. advice on 
best practices for divestiture. The Embassy's Office of Defense 
Cooperation will work with the Defense Threat Reduction Agency (DTRA), 
USEUCOM, and the State Department's Weapons Removal and Abatement (WRA) 
office to assist with the safe storage/destruction of weapons and 
ammunition as requested or required.

    Question. I understand that North Macedonia's MOD was set to 
complete a review of its existing infrastructure to determine what 
surpluses can be disposed of by June 2019. What is the status of that 
review? Please provide any documentation of this review that is 
available to the Department of Defense.

    Answer. The review is in its final stages. It includes an 
assessment of all existing infrastructure including locations, 
requirements, roles, responsibilities, use, management, current 
condition, and refurbishment needs. It will result in recommendations 
for future needs, which sites and facilities to retain, opportunities 
for consolidation, and options for disposal.
                               __________

              Responses of Philip T. Reeker to Questions 
                  Submitted by Senator Jeanne Shaheen

    Question. North Macedonia's membership would increase the 
integration of the entire Balkan region into Western structures and 
institutions. What economic benefit to the region do you anticipate 
from North Macedonia's NATO membership and how could that benefit in 
turn be strategically useful to NATO?

    Answer. North Macedonia's NATO membership will contribute to 
regional stability, security, and prosperity. The greater stability and 
security membership brings give confidence to consumers, businesses, 
and investors--including foreign investors--boosting economic growth. 
Increased consumption leads to greater opportunities for employment; 
more public investment leads to better infrastructure. Economic 
prosperity engenders good neighborly relations and open trade. A stable 
and vibrant economy attracts high-quality investment from foreign 
companies that respect the rule of law and demand a level playing 
field. North Macedonia has already seen an increase in foreign direct 
investment during the NATO accession process, and its economy is 
projected to sustain steady growth rates. NATO membership and 
associated reforms that strengthen the rule of law and fight corruption 
will bolster North Macedonia's institutional framework and provide it a 
stronger base for pushing back on Russia, China, and other malign 
actors. Stronger, more prosperous NATO Allies in turn contribute more 
to collective burden sharing.

    Question. How would the increased military, political and economic 
integration of the region due to North Macedonia's NATO membership 
offset foreign influence from Russia, China or other countries working 
against U.S. interests? What threats would it help mitigate?

    Answer. North Macedonia's membership in NATO will counter Russian 
efforts to sow discord and division in the region and other 
destabilizing threats. Allies have broadened their attention to China's 
activities in Europe too. The United States is leading the discussion 
by highlighting the potential dangers to NATO command & control and 
communications posed by Chinese telecom providers, such as Huawei. The 
United States emphasizes to Allies and partners the potential 
consequences of Chinese investment in, and ownership of, critical 
transportation infrastructure such as ports and airports.
    Countries like North Macedonia, which have faced direct effects of 
Russian disinformation and problematic Chinese investments, contribute 
to a unified response to malign actors in Europe. Coordinated action by 
NATO Allies strengthens regional stability and our collective security.

    Question. How would increased people-to-people (and military-to-
military) integration make the Balkan region less vulnerable to Russian 
disinformation?

    Answer. Russia does not accept the post-Cold War choices made by 
countries in favor of integration with the West, and has employed a 
range of malicious tactics against the United States and Europe to 
drive a wedge in the transatlantic relationship, weaken confidence in 
our commitment to Europe, and forestall the Western Balkan's Western 
integration. It aggressively seeks to incite divisions, interfere in 
elections processes, promote corrupt practices, and advance non-
democratic ideas. In contrast, the United States supports EU membership 
for all countries of the Western Balkans and NATO membership for those 
who want it and are capable of meeting the requirements for accession.
    We are supporting North Macedonia's further steps towards Western 
integration and pushing back on Russia's attempts to hinder these 
efforts. As part of the NATO accession process, military-to-military 
partnerships led by the U.S. Department of Defense and the Ministry of 
Defense of North Macedonia continue to strengthen the country's Western 
orientation. The State Department also supports a variety of 
programming to increase people-to-people ties. The State Department's 
Global Engagement Center monitors the sentiment of social media 
conversations and the spread of disinformation on NATO and other 
political events. Those analyses inform targeted, public engagement 
activities by the U.S. government and our partners, which are making 
the region less vulnerable to disinformation. People-to-people 
exchanges are further integrating the people of North Macedonia and the 
Balkans within Western institutions, further countering the 
disinformation narratives Russia peddles.

    Question. How is the Prespa Agreement and North Macedonia's NATO 
accession an argument against nationalist political movements 
throughout Europe and how can the negotiations of the Prespa Agreement 
serve specifically as a model for the resolution of other conflicts or 
disagreements?

    Answer. The implementation of the historic Prespa Agreement and the 
resolution of the name dispute with Greece underscore that North 
Macedonia is willing to make the sacrifices and compromises needed for 
peace and stability. North Macedonia serves as a model to the region, 
and the Prespa Agreement underscores to Serbia, Kosovo, and others in 
Europe that forward-looking agreements based on compromise can secure a 
better future.
                               __________

             Responses of Kathryn Wheelbarger to Questions 
                  Submitted by Senator Jeanne Shaheen

    Question. North Macedonia has been a steadfast partner in 
international operations such as Operation Iraqi Freedom, Operation 
Enduring Freedom and the NATO Resolute Support Mission in Afghanistan. 
What does North Macedonia's military capability offer to NATO missions 
specifically and what is the value to NATO of incorporating smaller 
members of NATO in missions beyond their immediate region?

    Answer. North Macedonia's commitment to the Alliance exceeds its 
size. North Macedonia has demonstrated its willingness, capacity, and 
capability to provide support to NATO missions. In addition to these 
missions, they have provided support to NATO Allies including the 
United States through the provision of access to training ranges, 
support to logistics, and strong political action with regard to 
returned foreign fighters. Once a member of NATO, these same 
capabilities will be enhanced as interoperability continues to improve. 
North Macedonia will be able to provide these improved capabilities 
once it is a full member, able to act in NATO's common defense and able 
to provide forces directly when and where the Alliance may need them.

    Question. North Macedonia's membership would increase the 
integration of the entire Balkan region into Western structures and 
institutions. What is the strategic benefit of such integration from a 
military perspective?

    Answer. North Macedonia's membership in the Alliance will solidify 
two decades of positive momentum towards regional security in the heart 
of the Balkans, where U.S. and NATO forces have twice been forced to 
intervene militarily. It also advances the Balkans towards western 
integration and helps to inoculate it from Russia's malign influence. 
The inclusion of another Ally who is interoperable and able to share 
military information seamlessly enhances the full range of military 
operations in the region. NATO accession also demonstrates that NATO's 
Open Door Policy remains strong and serves as an inspiration for other 
countries in the region to undertake reforms and make commitments 
required to enhance domestic and regional stability.

    Question. How would you quantify the benefit to NATO and U.S. 
interests of bringing North Macedonia into the Alliance as a full 
member rather than continuing to engage them as merely a reliable 
partner?

    Answer. The entrance of North Macedonia as a full member not only 
increases the stabilizing influence in the strategic area of the 
Western Balkans but allows for increased capability and capacity of the 
alliance to deter Russia, to fight against global terrorism, and to 
continue advancing interests as outlined in the National Defense 
Strategy. Already a strong partner, as evidenced by its support to 
operations in Afghanistan and Iraq, as a full member, North Macedonia 
would provide a solid commitment towards the goals of the Alliance and, 
if required, commit resources necessary to respond to threats. This 
commitment includes, but is not limited to, the commitment of forces as 
part of NATO's collective defense, a commitment to meet NATO defense 
capability targets, and resource burden sharing. The government of 
North Macedonia is already committed to meet the goal of defense 
spending at 2 percent of GDP by 2024. Furthermore, adding North 
Macedonia fills in the continental land bridge, providing continuous 
freedom of movement from the northern part of Europe to the southern 
flank. Its accession provides continuous access from the Black Sea to 
the Adriatic and Ionian Seas. All told, NATO membership is a key step 
in continuing to optimize the Alliance.
                               __________

   Letter From the U.S. Delegates to the NATO Parliamentary Assembly 
                  Submitted by Senator Robert Menendez
                  
                  


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

                                  <all>
</pre></body></html>
